No.
In the

Supreme Court of the United States
DONOVAN DAVE DIXON,

Petitioner,

v.
UNITED STATES OF AMERICA,

Respondent.

-----------------------------------------ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

------------------------------------------

APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
------------------------------------------

Raymond C. Tarlton
Counsel of Record
209 Fayetteville Street
Suite 105
Raleigh, NC 27601
(919) 948-6464
rtarlton@tarltonpolk.com
Counsel for Petitioner
GibsonMoore Appellate Services, LLC
206 East Cary Street ♦ Richmond, VA 23219
804-249-7770 ♦ www.gibsonmoore.net

ia
TABLE OF CONTENTS
Appendix
Page:
Opinion
United States Court of Appeals
For The Fourth Circuit
entered December 20, 2019 ................................. 1a
Judgment
United States Court of Appeals
For The Fourth Circuit
entered December 20, 2019 ................................. 7a
21 CFR 1306.04......................................................... 8a
21 USCS § 802 ........................................................ 10a
21 USCS § 829 ........................................................ 43a
21 USCS § 841, Part 1 of 6 ..................................... 48a
Excerpts of
Transcript of Trial Proceedings Before
The Honorable James C. Dever, III (Day 4)
on April 16, 2018 ............................................... 67a

1a
[ENTERED DECEMBER 20, 2019]
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
_________________
No. 18-4936
_________________
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
DONOVAN DAVE DIXON,
Defendant - Appellant.
_________________
Appeal from the United States District Court for the
Eastern District of North Carolina, at Wilmington.
James C. Dever III, District Judge. (7:16-cr-00030-D-1)
_________________
Submitted: December 12, 2019
Decided: December 20, 2019
_________________
Before AGEE and THACKER, Circuit Judges, and
TRAXLER, Senior Circuit Judge.
_________________
Affirmed by unpublished per curiam opinion.
_________________
Raymond C. Tarlton, TARLTON POLK PLLC,
Raleigh, North Carolina, for Appellant. Brian A.

2a
Benczkowski, Assistant Attorney General, Matthew
S. Miner, Deputy Assistant Attorney General,
Finnuala K. Tessier, Appellate Section, Criminal
Division, U.S. DEPARTMENT OF JUSTICE,
Washington, D.C.; Robert J. Higdon, Jr., United
States Attorney, Jennifer May-Parker, Assistant
United States Attorney, OFFICE OF THE UNITED
STATES ATTORNEY, Raleigh, North Carolina, for
Appellee.
_________________
Unpublished opinions are not binding precedent in
this circuit.
PER CURIAM:
A jury convicted Donovan Dave Dixon of
conspiracy to unlawfully dispense and distribute
oxycodone,
oxymorphone,
methadone,
and
alprazolam, in violation of 21 U.S.C. §§ 841(b)(1)(C),
846 (2018), and unlawfully dispensing and
distributing oxycodone, in violation of 21 U.S.C. §
841(a)(1), (b)(1)(C) (2018). The district court
sentenced Dixon to 240 months’ imprisonment. On
appeal, Dixon contends that the court’s jury
instructions on the substantive counts were
erroneous; that the Controlled Substances Act
(“CSA”), 21 U.S.C. §§ 801-904 (2018), is void for
vagueness as applied to physicians; and that his
sentence is procedurally unreasonable. We affirm.
A jury instruction is not erroneous if, “in light of
the whole record, [it] adequately informed the jury of
the controlling legal principles without misleading or
confusing the jury to the prejudice of the objecting
party.” United States v. Miltier, 882 F.3d 81, 89 (4th
Cir.) (internal quotation marks omitted), cert. denied,

3a
139 S. Ct. 130 (2018). In reviewing a challenge to the
jury instructions, “we do not view a single instruction
in isolation,” but instead “consider whether taken as
a whole and in the context of the entire charge, the
instructions accurately and fairly state the
controlling law.” United States v. Blankenship, 846
F.3d 663, 670-71 (4th Cir. 2017) (internal quotation
marks omitted).
Where, as here, the defendant failed to object to
the district court’s jury instructions, we review only
for plain error. United States v. Cowden, 882 F.3d 464,
475 (4th Cir. 2018). To succeed on his claim, Dixon
“has the burden to show that: (1) there was error; (2)
the error was plain; and (3) the error affected his
substantial rights.” Id. If Dixon makes this showing,
“we may exercise our discretion to correct the error
only if the error seriously affects the fairness,
integrity, or public reputation of judicial
proceedings.” Id. (brackets and internal quotation
marks omitted).
We conclude that the district court did not plainly
err in instructing the jury. The court’s instructions
were consistent with our precedents, as well as cases
from other Courts of Appeals. See, e.g., United States
v. Schneider, 704 F.3d 1287, 1296 (10th Cir. 2013);
United States v. Hurwitz, 459 F.3d 463, 475-77, 479
(4th Cir. 2006); United States v. Singh, 54 F.3d 1182,
1187 (4th Cir. 1995); United States v. Tran Trong
Cuong, 18 F.3d 1132, 1137-39 (4th Cir. 1994); United
States v. Rosen, 582 F.2d 1032, 1036 (5th Cir. 1978).
While Dixon relies on the Supreme Court’s decision in
Gonzales v. Oregon, 546 U.S. 243 (2006), several
Courts of Appeals have determined that Gonzales
imposed no new requirements to establish a violation
of the CSA. See United States v. Volkman, 797 F.3d

4a
377, 385-86 (6th Cir. 2015) (collecting cases).
Accordingly, Dixon cannot establish plain error. See
United States v. Harris, 890 F.3d 480, 491 (4th Cir.
2018) (“At a minimum, courts of appeals cannot
correct an error pursuant to plain error review unless
the error is clear under current law.” (brackets and
internal quotation marks omitted)); United States v.
Rouse, 362 F.3d 256, 263 (4th Cir. 2004) (recognizing,
in the absence of Supreme Court or Fourth Circuit
authority, “decisions by other circuit courts of appeals
are pertinent to the question of whether an error is
plain” (internal quotation marks omitted)). However,
even if the district court plainly erred, we conclude
that the evidence overwhelmingly established that
Dixon’s prescription practices were not legitimate.
See United States v. Nicolaou, 180 F.3d 565, 570 (4th
Cir. 1999) (holding, on plain error review, “in order for
the defense to establish that the jury misinstruction
altered the outcome of the trial, it had to show that
the proper instruction, on the same evidence, would
have resulted in acquittal, or at the very least a hung
jury.”).
Dixon also contends that the CSA is
unconstitutional as applied to physicians. We review
unpreserved constitutional claims for plain error.
United States v. Jackson, 706 F.3d 264, 270 n.2 (4th
Cir. 2013). “We consider whether a statute is vague as
applied to the particular facts at issue, for a
[defendant] who engages in some conduct that is
clearly proscribed cannot complain of the vagueness
of the law as applied to the conduct of others.” United
States v. Jaensch, 665 F.3d 83, 89 (4th Cir. 2011)
(brackets and internal quotation marks omitted).
Given Dixon’s flagrant conduct in this case, we
conclude that Dixon cannot establish that the CSA is

5a
vague as applied to him. Moreover, we have
previously rejected a similar as-applied challenge, as
have several other Courts of Appeals. See, e.g., United
States v. Orta-Rosario, 469 F. App’x 140, 143-44 (4th
Cir. 2012) (No. 10-4684); United States v. Birbragher,
603 F.3d 478, 488-89 (8th Cir. 2010); United States v.
Lovern, 590 F.3d 1095, 1103 (10th Cir. 2009); United
States v. DeBoer, 966 F.2d 1066, 1068-69 (6th Cir.
1992); United States v. Rosenberg, 515 F.2d 190, 19798 (9th Cir. 1975); United States v. Collier, 478 F.2d
268, 270-72 (5th Cir. 1973). Thus, Dixon cannot
establish plain error. See Rouse, 362 F.3d at 263; see
also United States v. Garcia-Lagunas, 835 F.3d 479,
496 (4th Cir. 2016) (noting that unpublished Fourth
Circuit case contradicting appellant’s argument
“suggests that even if the district court erred, such
error was not plain”).
Finally, Dixon argues that his sentence is
procedurally unreasonable because the district court
relied on a clearly erroneous fact—the Government’s
assertion that Dixon’s conduct killed someone. We
review a defendant’s sentence “under a deferential
abuse-of-discretion standard.” Gall v. United States,
552 U.S. 38, 41 (2007). Under the Gall standard, a
sentence is reviewed for both procedural and
substantive reasonableness. Id. at 51. In determining
procedural reasonableness, we consider whether the
district court properly calculated the defendant’s
advisory Sentencing Guidelines range, gave the
parties an opportunity to argue for an appropriate
sentence, considered the 18 U.S.C. § 3553(a) (2018)
factors, relied on any clearly erroneous facts, and
sufficiently explained the selected sentence. Id. at 4951.

6a
We discern no procedural error. The Government
admitted that it did not introduce any evidence in the
record specifically linking Dixon to any deaths.
However, the expert witness testified that the dosage
of oxycodone that Dixon prescribed could have killed
an individual who did not have an opioid tolerance.
The district court relied on this specific testimony in
stating that Dixon’s conduct could have resulted in
someone dying. While Dixon argues that the fact that
his sentence matches the mandatory minimum for a
controlled substance offense resulting in death
demonstrates the district court was persuaded by the
Government’s argument, his sentence (within the
advisory Guidelines range) was also the statutory
maximum sentence on Count 1. Thus, we conclude
that the length of Dixon’s sentence does not show that
his sentence was influenced by the Government’s
argument.
Accordingly, we affirm the district court’s
judgment. We dispense with oral argument because
the facts and legal contentions are adequately
presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED

7a
[ENTERED DECEMBER 20, 2019]
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-4936
(7:16-cr-00030-D-1)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
DONOVAN DAVE DIXON
Defendant - Appellant
___________________
JUDGMENT
___________________
In accordance with the decision of this court, the
judgment of the district court is affirmed.
This judgment shall take effect upon issuance of
this court's mandate in accordance with Fed. R. App.
P. 41.
/s/ PATRICIA S. CONNOR, CLERK

8a
21 CFR 1306.04
This document is current through the May 11, 2020
issue of the Federal Register with the exception of
the amendments appearing at 85 FR 27650 and 85
FR 27810. Title 3 is current through May 8, 2020.
Code of Federal Regulations > TITLE 21 -- FOOD
AND DRUGS > CHAPTER II – DRUG
ENFORCEMENT
ADMINISTRATION,
DEPARTMENT OF JUSTICE > PART 1306 -PRESCRIPTIONS > GENERAL INFORMATION
§ 1306.04 Purpose of issue of prescription.
(a)A prescription for a controlled substance to be
effective must be issued for a legitimate medical
purpose by an individual practitioner acting in the
usual course of his professional practice. The
responsibility for the proper prescribing and
dispensing of controlled substances is upon the
prescribing practitioner, but a corresponding
responsibility rests with the pharmacist who fills
the prescription. An order purporting to be a
prescription issued not in the usual course of
professional treatment or in legitimate and
authorized research is not a prescription within
the meaning and intent of section 309 of the Act
(21 U.S.C. 829) and the person knowingly filling
such a purported prescription, as well as the
person issuing it, shall be subject to the penalties
provided for violations of the provisions of law
relating to controlled substances.
(b)A prescription may not be issued in order for an
individual practitioner to obtain controlled
substances
for
supplying
the
individual

9a
practitioner for the purpose of general dispensing
to patients.
(c)A prescription may not be issued for
"detoxification treatment" or "maintenance
treatment," unless the prescription is for a
Schedule III, IV, or V narcotic drug approved by
the Food and Drug Administration specifically for
use in maintenance or detoxification treatment
and the practitioner is in compliance with
requirements in § 1301.28 of this chapter.
Statutory Authority
AUTHORITY NOTE APPLICABLE TO ENTIRE
PART:
21 U.S.C. 821, 829, 831, 871(b).
History
[36 FR 7799, Apr. 24, 1971. Redesignated at 38 FR
26609, Sept. 24, 1973, and amended at 39 FR 37986,
Oct. 25, 1974; 70 FR 36338, 36343, June 23, 2005]
LEXISNEXIS'
REGULATIONS

CODE

OF

FEDERAL

Copyright © 2020, by Matthew Bender & Company, a
member of the LexisNexis Group. All rights reserved.

10a
21 USCS § 802
Current through Public Law 116-140,
approved April 28, 2020.
United States Code Service > TITLE 21. FOOD
AND DRUGS (Chs. 1 — 28) > CHAPTER 13.
DRUG ABUSE PREVENTION AND CONTROL
(§§
801
—
971)
>
CONTROL
AND
ENFORCEMENT
(§§
801
—
904)
>
INTRODUCTORY PROVISIONS (§§ 801 — 803)
§ 802. Definitions
As used in this title:
(1)The term “addict” means any individual who
habitually uses any narcotic drug so as to endanger
the public morals, health, safety, or welfare, or who is
so far addicted to the use of narcotic drugs as to have
lost the power of self-control with reference to his
addiction.
(2)The term “administer” refers to the direct
application of a controlled substance to the body of a
patient or research subject by—
(A)a practitioner (or, in his presence, by his
authorized agent), or
(B)the patient or research subject at the direction and
in the presence of the practitioner, whether such
application be by injection, inhalation, ingestion, or
any other means.
(3)The term “agent” means an authorized person who
acts on behalf of or at the direction of a manufacturer,
distributor, or dispenser; except that such term does
not include a common or contract carrier, public
warehouseman, or employee of the carrier or

11a
warehouseman, when acting in the usual and lawful
course of the carrier’s or warehouseman’s business.
(4)The term “Drug Enforcement Administration”
means the Drug Enforcement Administration in the
Department of Justice.
(5)The term “control” means to add a drug or other
substance, or immediate precursor, to a schedule
under part B of this title, whether by transfer from
another schedule or otherwise.
(6)The term “controlled substance” means a drug or
other substance, or immediate precursor, included in
schedule I, II, III, IV, or V of part B of this title [21
USCS § 812]. The term does not include distilled
spirits, wine, malt beverages, or tobacco, as those
terms are defined or used in subtitle E of the Internal
Revenue Code of 1954 [26 USCS §§ 5001 et seq.].
(7)The term “counterfeit substance” means a
controlled substance which, or the container or
labeling of which, without authorization, bears the
trademark, trade name, or other identifying mark,
imprint, number, or device, or any likeness thereof, of
a manufacturer, distributor, or dispenser other than
the person or persons who in fact manufactured,
distributed, or dispensed such substance and which
thereby falsely purports or is represented to be the
product of, or to have been distributed by, such other
manufacturer, distributor, or dispenser.
(8)The terms “deliver” or “delivery” mean the actual,
constructive, or attempted transfer of a controlled
substance or a listed chemical, whether or not there
exists an agency relationship.
(9)The term “depressant or stimulant substance”
means—

12a
(A)a drug which contains any quantity of barbituric
acid or any of the salts of barbituric acid; or
(B)a drug which contains any quantity of (i)
amphetamine or any of its optical isomers; (ii) any salt
of amphetamine or any salt of an optical isomer of
amphetamine; or (iii) any substance which the
Attorney General, after investigation, has found to be,
and by regulation designated as, habit forming
because of its stimulant effect on the central nervous
system; or
(C)lysergic acid diethylamide; or
(D)any drug which contains any quantity of a
substance which the Attorney General, after
investigation, has found to have, and by regulation
designated as having, a potential for abuse because of
its depressant or stimulant effect on the central
nervous system or its hallucinogenic effect.
(10) The term “dispense” means to deliver a controlled
substance to an ultimate user or research subject by,
or pursuant to the lawful order of, a practitioner,
including the prescribing and administering of a
controlled substance and the packaging, labeling, or
compounding necessary to prepare the substance for
such delivery. The term “dispenser” means a
practitioner who so delivers a controlled substance to
an ultimate user or research subject.
(11) The term “distribute” means to deliver (other than
by administering or dispensing) a controlled
substance or a listed chemical. The term “distributor”
means a person who so delivers a controlled substance
or a listed chemical.

13a
(12) The term “drug” has the meaning given that term
by section 201(g)(1) of the Federal Food, Drug, and
Cosmetic Act [21 USCS § 321(g)(1)].
(13) The term “felony” means any Federal or State
offense classified by applicable Federal or State law
as a felony.
(14) The term “isomer” means the optical isomer,
except as used in schedule I(c) and schedule II(a)(4).
As used in schedule I(c), the term “isomer” means any
optical, positional, or geometric isomer. As used in
schedule II(a)(4), the term “isomer” means any optical
or geometric isomer.
(15) The term “manufacture” means the production,
preparation,
propagation,
compounding,
or
processing of a drug or other substance, either
directly or indirectly or by extraction from substances
of natural origin, or independently by means of
chemical synthesis or by a combination of extraction
and chemical synthesis, and includes any packaging
or repackaging of such substance or labeling or
relabeling of its container; except that such term does
not include the preparation, compounding, packaging,
or labeling of a drug or other substance in conformity
with applicable State or local law by a practitioner as
an incident to his administration or dispensing of
such drug or substance in the course of his
professional practice. The term “manufacturer”
means a person who manufactures a drug or other
substance.
(16)
(A)Subject to subparagraph (B), the term
“marihuana” means all parts of the plant Cannabis
sativa L., whether growing or not; the seeds thereof;

14a
the resin extracted from any part of such plant; and
every compound, manufacture, salt, derivative,
mixture, or preparation of such plant, its seeds or
resin.
(B)The term “marihuana” does not include—
(i) hemp, as defined in section 297A of the
Agricultural Marketing Act of 1946 [7 USCS § 1639o];
or
(ii) the mature stalks of such plant, fiber produced
from such stalks, oil or cake made from the seeds of
such plant, any other compound, manufacture, salt,
derivative, mixture, or preparation of such mature
stalks (except the resin extracted therefrom), fiber,
oil, or cake, or the sterilized seed of such plant which
is incapable of germination.
(17)The term “narcotic drug” means any of the
following whether produced directly or indirectly by
extraction from substances of vegetable origin, or
independently by means of chemical synthesis, or by
a combination of extraction and chemical synthesis:
(A)Opium, opiates, derivatives of opium and opiates,
including their isomers, esters, ethers, salts, and salts
of isomers, esters, and ethers, whenever the existence
of such isomers, esters, ethers, and salts is possible
within the specific chemical designation. Such term
does not include the isoquinoline alkaloids of opium.
(B)Poppy straw and concentrate of poppy straw.
(C)Coca leaves, except coca leaves and extracts of coca
leaves from which cocaine, ecgonine, and derivatives
of ecgonine or their salts have been removed.
(D)Cocaine, its salts, optical and geometric isomers,
and salts of isomers.

15a
(E)Ecgonine, its derivatives, their salts, isomers, and
salts of isomers.
(F)Any compound, mixture, or preparation which
contains any quantity of any of the substances
referred to in subparagraphs (A) through (E).
(16) The term “opiate” or “opioid” means any drug or
other substance having an addiction-forming or
addiction- sustaining liability similar to morphine or
being capable of conversion into a drug having such
addiction-forming or addiction-sustaining liability.
(17) The term “opium poppy” means the plant of the
species Papaver somniferum L., except the seed
thereof.
(18) The term “poppy straw” means all parts, except
the seeds, of the opium poppy, after mowing.
(19) The term “practitioner” means a physician,
dentist,
veterinarian,
scientific
investigator,
pharmacy, hospital, or other person licensed,
registered, or otherwise permitted, by the United
States or the jurisdiction in which he practices or does
research, to distribute, dispense, conduct research
with respect to, administer, or use in teaching or
chemical analysis, a controlled substance in the
course of professional practice or research.
(20) The term “production” includes the manufacture,
planting, cultivation, growing, or harvesting of a
controlled substance.
(21) The term
substance—

“immediate

precursor”

means

a

• which the Attorney General has found to be and by
regulation designated as being the principal

16a
compound used, or produced primarily for use, in the
manufacture of a controlled substance;
• which is an immediate chemical intermediary used or
likely to be used in the manufacture of such controlled
substance; and
• the control of which is necessary to prevent, curtail,
or limit the manufacture of such controlled substance.
(22) The term “Secretary,” unless the context otherwise
indicates, means the Secretary of Health and Human
Services.
(23) The term “serious bodily injury” means bodily
injury which involves—
(A)a substantial risk of death;
(iii) protracted and obvious disfigurement; or
(iv) protracted loss or impairment of the function of a
bodily member, organ, or mental faculty.
(26) The term “State” means a State of the United
States, the District of Columbia, and any
commonwealth, territory, or possession of the United
States.
(27) The term “ultimate user” means a person who has
lawfully obtained, and who possesses, a controlled
substance for his own use or for the use of a member
of his household or for an animal owned by him or by
a member of his household.
(28) The term “United States”, when used in a
geographic sense, means all places and waters,
continental or insular, subject to the jurisdiction of
the United States.
(29) The term “maintenance treatment” means the
dispensing, for a period in excess of twenty-one days,

17a
of a narcotic drug in the treatment of an individual for
dependence upon heroin or other morphine-like
drugs.
(30) The term “detoxification treatment” means the
dispensing, for a period not in excess of one hundred
and eighty days, of a narcotic drug in decreasing doses
to an individual in order to alleviate adverse
physiological or psychological effects incident to
withdrawal from the continuous or sustained use of a
narcotic drug and as a method of bringing the
individual to a narcotic drug-free state within such
period.
(31) The
term
“Convention
on
Psychotropic
Substances” means the Convention on Psychotropic
Substances signed at Vienna, Austria, on February
21, 1971; and the term “Single Convention on
Narcotic Drugs” means the Single Convention on
Narcotic Drugs signed at New York, New York, on
March 30, 1961.
(32)
(A)Except as provided in subparagraph (C), the term
“controlled substance analogue” means a substance—
(i)the chemical structure of which is substantially
similar to the chemical structure of a controlled
substance in schedule I or II;
(ii)which has a stimulant, depressant, or
hallucinogenic effect on the central nervous system
that is substantially similar to or greater than the
stimulant, depressant, or hallucinogenic effect on the
central nervous system of a controlled substance in
schedule I or II; or
(iii)with respect to a particular person, which such
person represents or intends to have a stimulant,

18a
depressant, or hallucinogenic effect on the central
nervous system that is substantially similar to or
greater than the stimulant, depressant, or
hallucinogenic effect on the central nervous system of
a controlled substance in schedule I or II.
(B)The designation of gamma butyrolactone or any
other chemical as a listed chemical pursuant to
paragraph (34) or (35) does not preclude a finding
pursuant to subparagraph (A) of this paragraph that
the chemical is a controlled substance analogue.
(C)Such term does not include—
(i)a controlled substance;
(ii)any substance for which there is an approved new
drug application;
(iii)with respect to a particular person any substance,
if an exemption is in effect for investigational use, for
that person, under section 505 of the Federal Food,
Drug, and Cosmetic Act (21 U.S.C. 355) to the extent
conduct with respect to such substance is pursuant to
such exemption; or
(iv)any substance to the extent not intended for
human consumption before such an exemption takes
effect with respect to that substance.
(33)The term “listed chemical” means any list I
chemical or any list II chemical.
(34)The term “list I chemical” means a chemical
specified by regulation of the Attorney General as a
chemical that is used in manufacturing a controlled
substance in violation of this title and is important to
the manufacture of the controlled substances, and
such term includes (until otherwise specified by
regulation of the Attorney General, as considered

19a
appropriate by the Attorney General or upon petition
to the Attorney General by any person) the following:
(A)Anthranilic acid, its esters, and its salts.
(B)Benzyl cyanide.
(C)Ephedrine, its salts, optical isomers, and salts of
optical isomers.
(D)Ergonovine and its salts.
(E)Ergotamine and its salts.
(F)N-Acetylanthranilic acid, its esters, and its salts.
(G)Norpseudoephedrine, its salts, optical isomers,
and salts of optical isomers.
(H)Phenylacetic acid, its esters, and its salts.
(I)Phenylpropanolamine, its salts, optical isomers,
and salts of optical isomers.
(J)Piperidine and its salts.
(K)Pseudoephedrine, its salts, optical isomers, and
salts of optical isomers.
(L)3,4-Methylenedioxyphenyl-2-propanone.
(M)Methylamine.
(N)Ethylamine.
(O)Propionic anhydride.
(P)Isosafrole.
(Q)Safrole.
(R)Piperonal.
(S)N-Methylephedrine.
(T)N-methylpseudoephedrine.
(U)Hydriodic acid.

20a
(V)Benzaldehyde.
(W)Nitroethane.
(X)Gamma butyrolactone.
(Y)Any salt, optical isomer, or salt of an optical isomer
of the chemicals listed in subparagraphs (M) through
(U) of this paragraph.
(35)The term “list II chemical” means a chemical
(other than a list I chemical) specified by regulation
of the Attorney General as a chemical that is used in
manufacturing a controlled substance in violation of
this title, and such term includes (until otherwise
specified by regulation of the Attorney General, as
considered appropriate by the Attorney General or
upon petition to the Attorney General by any person)
the following chemicals:
(A)Acetic anhydride.
(B)Acetone.
(C)Benzyl chloride.
(D)Ethyl ether.
(E)[Repealed]
(F)Potassium permanganate.
(G)2-Butanone (or Methyl Ethyl Ketone).
(H)Toluene.
(I)Iodine.
(J)Hydrochloric gas.
(36)The term “regular customer” means, with respect
to a regulated person, a customer with whom the
regulated person has an established business
relationship that is reported to the Attorney General.

21a
(37)The term “regular importer” means, with respect
to a listed chemical, a person that has an established
record as an importer of that listed chemical that is
reported to the Attorney General.
(38)The term “regulated person” means a person who
manufactures, distributes, imports, or exports a listed
chemical, a tableting machine, or an encapsulating
machine or who acts as a broker or trader for an
international transaction involving a listed chemical,
a tableting machine, or an encapsulating machine.
(39)The term “regulated transaction” means—
(A)a distribution, receipt, sale, importation, or
exportation of, or an international transaction
involving shipment of, a listed chemical, or if the
Attorney General establishes a threshold amount for
a specific listed chemical, a threshold amount,
including a cumulative threshold amount for multiple
transactions (as determined by the Attorney General,
in consultation with the chemical industry and taking
into consideration the quantities normally used for
lawful purposes), of a listed chemical, except that
such term does not include—
(i)a domestic lawful distribution in the usual course
of business between agents or employees of a single
regulated person;
(ii)a delivery of a listed chemical to or by a common
or contract carrier for carriage in the lawful and usual
course of the business of the common or contract
carrier, or to or by a warehouseman for storage in the
lawful and usual course of the business of the
warehouseman, except that if the carriage or storage
is in connection with the distribution, importation, or
exportation of a listed chemical to a third person, this

22a
clause does not relieve a distributor, importer, or
exporter from compliance with section 310 [21 USCS
§ 830];
(iii)any category of transaction or any category of
transaction for a specific listed chemical or chemicals
specified by regulation of the Attorney General as
excluded from this definition as unnecessary for
enforcement of this title or title III;
(iv)any transaction in a listed chemical that is
contained in a drug that may be marketed or
distributed lawfully in the United States under the
Federal Food, Drug, and Cosmetic Act, subject to
clause (v), unless—
(I)the Attorney General has determined under
section 204 [21 USCS § 814] that the drug or group of
drugs is being diverted to obtain the listed chemical
for use in the illicit production of a controlled
substance; and
(II)the quantity of the listed chemical contained in
the drug included in the transaction or multiple
transactions equals or exceeds the threshold
established for that chemical by the Attorney
General;
(v)any transaction in a scheduled listed chemical
product that is a sale at retail by a regulated seller or
a distributor required to submit reports under section
310(b)(3) [21 USCS § 830(b)(3)]; or
(vi)any transaction in a chemical mixture which the
Attorney General has by regulation designated as
exempt from the application of this title and title III
based on a finding that the mixture is formulated in
such a way that it cannot be easily used in the illicit
production of a controlled substance and that the

23a
listed chemical or chemicals contained in the mixture
cannot be readily recovered; and
(B)a distribution, importation, or exportation of a
tableting machine or encapsulating machine.
(40)The term “chemical mixture” means a
combination of two or more chemical substances, at
least one of which is not a list I chemical or a list II
chemical, except that such term does not include any
combination of a list I chemical or a list II chemical
with another chemical that is present solely as an
impurity.
(41)
(A)The term “anabolic steroid” means any drug or
hormonal
substance,
chemically
and
pharmacologically related to testosterone (other than
estrogens,
progestins,
corticosteroids,
and
dehydroepiandrosterone), and includes—
(i)androstanediol—
(I)3β,17β-dihydroxy-5α-androstane; and
(II)3α,17β-dihydroxy-5α-androstane;
(ii)androstanedione (5α-androstan-3,17-dione);
(iii)androstenediol—
(I)1-androstenediol (3β,17β-dihydroxy-5α-androst-1ene);
(II)1-androstenediol (3α,17β-dihydroxy-5α-androst-1ene);
(III)4-androstenediol
ene); and

(3β,17β-dihydroxy-androst-4-

(IV)5-androstenediol
ene);

(3β,17β-dihydroxy-androst-5-

24a
(iv)androstenedione—
(I)1-androstenedione ([5a]-androst-1-en-3,17-dione);
(II)4-androstenedione (androst-4-en-3,17-dione); and
(III)5-androstenedione (androst-5-en-3,17-dione);
(v)bolasterone
(7α,17α
hydroxyandrost-4-en-3-one);

-dimethyl-17β

-

(vi)boldenone (17β-hydroxyandrost-1,4,-diene-3-one);
(vii)calusterone
(7β,17α-dimethyl-17β
hydroxyandrost-4-en-3-one);

-

(viii)clostebol (4-chloro-17β-hydroxyandrost-4-en-3one);
(ix)dehydrochloromethyltestosterone (4-chloro-17β hydroxy-17α-methyl-androst-1, 4-dien-3-one);
(x)D 1-dihydrotestosterone (a.k.a. “1-testosterone”)
(17β-hydroxy-5α-androst-1-en-3-one);
(xi)4-dihydrotestosterone (17β-hydroxy-androstan-3one);
(xii)drostanolone
androstan-3-one);
(xiii)ethylestrenol
ene);

(17β-hydroxy-2α

-methyl-5α-

(17α-ethyl-17β-hydroxyestr-4-

(xiv)fluoxymesterone (9-fluoro-17α-methyl-11β, 17βdihydroxyandrost-4-en-3-one);
(xv)formebolone (2-formyl-17α-methyl-11α,
dihydroxyandrost-1,4-dien-3-one);
(xvi)furazabol
(17α-methyl-17β
hydroxyandrostano[2,3-c]-furazan);
(xvii)13β-ethyl-17β-hydroxygon-4-en-3-one;

17β-

25a
(xviii)4-hydroxytestosterone
androst-4-en-3-one);

(4,17β-dihydroxy-

(xix)4-hydroxy-19-nortestosterone (4,17β-dihydroxyestr-4-en-3-one);
(xx)mestanolone
androstan-3-one);

(17α-methyl-17β

(xxi)mesterolone
androstan-3-one);

(1α-methyl-17β

-hydroxy-5α-hydroxy-[5a]-

(xxii)methandienone
(17α-methyl-17β
hydroxyandrost-1,4-dien-3-one);

-

(xxiii)methandriol
(17α-methyl-3β,17β
dihydroxyandrost-5-ene);

-

(xxiv)methenolone
androst-1-en-3-one);

-

(1-methyl-17β-hydroxy-5α

(xxv)17α-methyl-3β, 17β-dihydroxy-5α-androstane;
(xxvi)17α-methyl-3α, 17β-dihydroxy-5α-androstane;
(xxvii)17α-methyl-3β, 17β-dihydroxyandrost-4-ene.
(xxviii)17α-methyl-4-hydroxynandrolone
(17αmethyl-4-hydroxy-17β -hydroxyestr-4-en-3-one);
(xxix)methyldienolone
(17α-methyl-17β
hydroxyestra-4,9(10)-dien-3-one);

-

(xxx)methyltrienolone
(17α-methyl-17β
hydroxyestra-4,9-11-trien-3-one);

-

(xxxi)methyltestosterone
hydroxyandrost-4-en-3-one);

-

(17α-methyl-17β

(xxxii)mibolerone
(7α,17α-dimethyl-17β
hydroxyestr-4-en-3-one);

-

(xxxiii)17α-methyl-D 1-dihydrotestosterone (17βhydroxy-17α-methyl-5α -androst-1-en-3-one) (a.k.a.

26a
“17-α-methyl-1-testosterone”);
(xxxiv)nandrolone (17β-hydroxyestr-4-en-3-one);
(xxxv)norandrostenediol—
(I)19-nor-4-androstenediol (3β, 17β-dihydroxyestr-4ene);
(II)19-nor-4-androstenediol (3α, 17β-dihydroxyestr-4ene);
(III)19-nor-5-androstenediol (3β, 17β-dihydroxyestr5-ene); and
(IV)19-nor-5-androstenediol (3α, 17β-dihydroxyestr5-ene);
(xxxvi)norandrostenedione—
(I)19-nor-4-androstenedione
and

(estr-4-en-3,17-dione);

(II)19-nor-5-androstenedione (estr-5-en-3,17-dione;
(xxxvii)norbolethone
hydroxygon-4-en-3-one);
(xxxviii)norclostebol
en-3-one);

(13β,17α-diethyl-17β

-

(4-chloro-17β-hydroxyestr-4-

(xxxix)norethandrolone (17α-ethyl-17β-hydroxyestr4-en-3-one);
(xl)normethandrolone (17α-methyl-17β-hydroxyestr4-en-3-one);
(xli)oxandrolone (17α-methyl-17β
[5α] -androstan-3-one);
(xlii)oxymesterone
dihydroxyandrost-4-en-3-one);

-hydroxy-2-oxa-

(17α-methyl-4,17β-

27a
(xliii)oxymetholone
(17α-methyl-2hydroxymethylene-17β -hydroxy-[5α] -androstan-3one);
(xliv)stanozolol
(17α-methyl-17β-hydroxy-[
androst-2-eno[3, 2-c]-pyrazole);

5α]-

(xlv)stenbolone (17β-hydroxy-2-methyl-[ 5α]-androst1-en-3-one);
(xlvi)testolactone
(13-hydroxy-3-oxo-13,17secoandrosta-1,4-dien-17-oic acid lactone);
(xlvii)testosterone (17β-hydroxyandrost-4-en-3-one);
(xlviii)tetrahydrogestrinone (13β,17α -diethyl-17βhydroxygon-4,9, 11-trien-3-one);
(xlix)trenbolone
one);

(17β-hydroxyestr-4,9,11-trien-3-

(l)5α-Androstan-3,6,17-trione;
(li)6-bromo-androstan-3,17-dione;
(lii)6-bromo-androsta-1,4-diene-3,17-dione;
(liii)4-chloro-17α-methyl-androsta-1,4-diene-3,17βdiol;
(liv)4-chloro-17α-methyl-androst-4-ene-3β,17β-diol;
(lv)4-chloro-17α-methyl-17β-hydroxy-androst-4-en-3one;
(lvi)4-chloro-17α-methyl-17β-hydroxy-androst-4-ene3, 11-dione;
(lvii)4-chloro-17α-methyl-androsta-1,4-diene-3,17βdiol;
(lviii)2α,17α-dimethyl-17β-hydroxy-5α-androstan-3one;

28a
(lix)2α,17α-dimethyl-17β-hydroxy-5β-androstan-3one;
(lx)2α,3α-epithio-17α-methyl-5α-androstan-17β-ol;
(lxi)[3,2-c]-furazan-5α-androstan-17β-ol;
(lxii)3β-hydroxy-estra-4,9,11-trien-17-one;
(lxiii)17α-methyl-androst-2-ene-3,17β-diol;
(lxiv)17α-methyl-androsta-1,4-diene-3,17β-diol;
(lxv)Estra-4,9,11-triene-3,17-dione;
(lxvi)18a-Homo-3-hydroxy-estra-2,5(10)-dien-17-one;
(lxvii)6α-Methyl-androst-4-ene-3,17-dione;
(lxviii)17α-Methyl-androstan-3-hydroxyimine-17βol;
(lxix)17α-Methyl-5α-androstan-17β-ol;
(lxx)17β-Hydroxy-androstano[2,3-d]isoxazole;
(lxxi)17β-Hydroxy-androstano[3,2-c]isoxazole;
(lxxii)4-Hydroxy-androst-4-ene-3,17-dione[3,2c]pyrazole-5α-androstan-17β-ol;
(lxxiii)[3,2-c]pyrazole-androst-4-en-17β-ol;
(lxxiv)[3,2-c]pyrazole-5α-androstan-17β-ol; and
(lxxv)any salt, ester, or ether of a drug or substance
described in this paragraph.
The substances excluded under this subparagraph
may at any time be scheduled by the Attorney
General in accordance with the authority and
requirements of subsections (a) through (c) of section
201 [21 USCS § 811].
(B)

29a
(i)Except as provided in clause (ii), such term does not
include an anabolic steroid which is expressly
intended for administration through implants to
cattle or other nonhuman species and which has been
approved by the Secretary of Health and Human
Services for such administration.
(ii)If any person prescribes, dispenses, or distributes
such steroid for human use, such person shall be
considered to have prescribed, dispensed, or
distributed an anabolic steroid within the meaning of
subparagraph (A).
(C)
(i)Subject to clause (ii), a drug or hormonal substance
(other than estrogens, progestins, corticosteroids, and
dehydroepiandrosterone) that is not listed in
subparagraph (A) and is derived from, or has a
chemical structure substantially similar to, 1 or more
anabolic steroids listed in subparagraph (A) shall be
considered to be an anabolic steroid for purposes of
this Act if—
(I)the drug or substance has been created or
manufactured with the intent of producing a drug or
other substance that either—
(aa)promotes muscle growth; or
(bb)otherwise causes a pharmacological effect similar
to that of testosterone; or
(II)the drug or substance has been, or is intended to
be, marketed or otherwise promoted in any
manner suggesting that consuming it will promote
muscle growth or any other pharmacological
effect similar to that of testosterone.

30a
(ii)A substance shall not be considered to be a drug or
hormonal substance for purposes of this
subparagraph if it—
(I)is—
(aa)an herb or other botanical;
(bb)a concentrate, metabolite, or extract of, or a
constituent isolated directly from, an herb or other
botanical; or
(cc)a combination of 2 or more substances described
in item (aa) or (bb);
(II)is a dietary ingredient for purposes of the Federal
Food, Drug, and Cosmetic Act (21 U.S.C. 301 et seq.);
and
(III)is not anabolic or androgenic.
(iii)In accordance with section 515(a) [21 USCS §
515(a)], any person claiming the benefit of an
exemption or exception under clause (ii) shall bear the
burden of going forward with the evidence with
respect to such exemption or exception.
(42)The term “international transaction” means a
transaction involving the shipment of a listed
chemical across an international border (other than a
United States border) in which a broker or trader
located in the United States participates.
(43)The terms “broker” and “trader” mean a person
that assists in arranging an international transaction
in a listed chemical by—
(A)negotiating contracts;
(B)serving as an agent or intermediary; or

31a
(C)bringing together a buyer and seller, a buyer and
transporter, or a seller and transporter.
(44)The term “felony drug offense” means an offense
that is punishable by imprisonment for more than one
year under any law of the United States or of a State
or foreign country that prohibits or restricts conduct
relating to narcotic drugs, marihuana, anabolic
steroids, or depressant or stimulant substances.
(45)
(A)The term “scheduled listed chemical product”
means, subject to subparagraph (B), a product that—
(i)contains
ephedrine,
phenylpropanolamine; and

pseudoephedrine,

or

(ii)may be marketed or distributed lawfully in the
United States under the Federal, Food, Drug, and
Cosmetic Act as a nonprescription drug. Each
reference in clause (i) to ephedrine, pseudoephedrine,
or phenylpropanolamine includes each of the salts,
optical isomers, and salts of optical isomers of such
chemical.
(B)Such term does not include a product described in
subparagraph (A) if the product contains a chemical
specified in such subparagraph that the Attorney
General has under section 201(a) [21 USCS § 811(a)]
added to any of the schedules under section 202(c) [21
USCS § 812(c)]. In the absence of such scheduling by
the Attorney General, a chemical specified in such
subparagraph may not be considered to be a
controlled substance.
(46)The term “regulated seller” means a retail
distributor (including a pharmacy or a mobile retail
vendor), except that such term does not include an
employee or agent of such distributor.

32a
(47)The term “mobile retail vendor” means a person
or entity that makes sales at retail from a stand that
is intended to be temporary, or is capable of being
moved from one location to another, whether the
stand is located within or on the premises of a fixed
facility (such as a kiosk at a shopping center or an
airport) or whether the stand is located on
unimproved real estate (such as a lot or field leased
for retail purposes).
(48)The term “at retail”, with respect to the sale or
purchase of a scheduled listed chemical product,
means a sale or purchase for personal use,
respectively.
(49)
(A)The term “retail distributor” means a grocery
store, general merchandise store, drug store, or other
entity or person whose activities as a distributor
relating
to
ephedrine,
pseudoephedrine,
or
phenylpropanolamine products are limited almost
exclusively to sales for personal use, both in number
of sales and volume of sales, either directly to walk-in
customers or in face-to-face transactions by direct
sales.
(B)For purposes of this paragraph, entities are
defined by reference to the Standard Industrial
Classification (SIC) code, as follows:
(i)A grocery store is an entity within SIC code 5411.
(ii)A general merchandise store is an entity within
SIC codes 5300 through 5399 and 5499.
(iii)A drug store is an entity within SIC code 5912.
(50)The term “Internet” means collectively the
myriad of computer and telecommunications

33a
facilities, including equipment and operating
software, which comprise the interconnected
worldwide network of networks that employ the
Transmission Control Protocol/Internet Protocol, or
any predecessor or successor protocol to such protocol,
to communicate information of all kinds by wire or
radio.
(51)The term “deliver, distribute, or dispense by
means of the Internet” refers, respectively, to any
delivery, distribution, or dispensing of a controlled
substance that is caused or facilitated by means of the
Internet.
(52)The term “online pharmacy”—
(A)means a person, entity, or Internet site, whether
in the United States or abroad, that knowingly or
intentionally delivers, distributes, or dispenses, or
offers or attempts to deliver, distribute, or dispense, a
controlled substance by means of the Internet; and
(B)does not include—
(i)manufacturers or distributors registered under
subsection (a), (b), (d), or (e) of section 303 [21 USCS
§ 823] who do not dispense controlled substances to
an unregistered individual or entity;
(ii)nonpharmacy practitioners who are registered
under section 303(f) [21 USCS § 823(f)] and whose
activities are authorized by that registration;
(iii)any hospital or other medical facility that is
operated by an agency of the United States (including
the Armed Forces), provided such hospital or other
facility is registered under section 303(f) [21 USCS §
823(f)];

34a
(iv)a health care facility owned or operated by an
Indian tribe or tribal organization, only to the extent
such facility is carrying out a contract or compact
under the Indian Self-Determination and Education
Assistance Act [25 USCS §§ 450 et seq.];
(v)any agent or employee of any hospital or facility
referred to in clause (iii) or (iv), provided such agent
or employee is lawfully acting in the usual course of
business or employment, and within the scope of the
official duties of such agent or employee, with such
hospital or facility, and, with respect to agents or
employees of health care facilities specified in clause
(iv), only to the extent such individuals are furnishing
services pursuant to the contracts or compacts
described in such clause;
(vi)mere advertisements that do not attempt to
facilitate an actual transaction involving a controlled
substance;
(vii)a person, entity, or Internet site that is not in the
United States and does not facilitate the delivery,
distribution, or dispensing of a controlled substance
by means of the Internet to any person in the United
States;
(viii)a pharmacy registered under section 303(f) [21
USCS § 823(f)] whose dispensing of controlled
substances via the Internet consists solely of—
(I)refilling prescriptions for controlled substances in
schedule III, IV, or V, as defined in paragraph (55); or
(II)filling new prescriptions for controlled substances
in schedule III, IV, or V, as defined in paragraph (56);
or
(ix)any other persons for whom the Attorney General
and the Secretary have jointly, by regulation, found it

35a
to be consistent with effective controls against
diversion and otherwise consistent with the public
health and safety to exempt from the definition of an
“online pharmacy”.
(53)The term “homepage” means the opening or main
page or screen of the website of an online pharmacy
that is viewable on the Internet.
(54)The term “practice of telemedicine” means, for
purposes of this title, the practice of medicine in
accordance with applicable Federal and State laws by
a practitioner (other than a pharmacist) who is at a
location remote from the patient and is
communicating with the patient, or health care
professional who is treating the patient, using a
telecommunications system referred to in section
1834(m) of the Social Security Act [42 USCS §
1395m(m)], which practice—
(A)is being conducted—
(i)while the patient is being treated by, and physically
located in, a hospital or clinic registered under section
303(f) [21 USCS § 823(f)]; and
(ii)by a practitioner—
(I)acting in the usual course of professional practice;
(II)acting in accordance with applicable State law;
and
(III)registered under section 303(f) [21 USCS §
823(f)] in the State in which the patient is located,
unless the practitioner—
(aa)is exempted from such registration in all States
under section 302(d) [21 USCS § 822(d)]; or
(bb)is—

36a
(AA)an employee or contractor of the Department of
Veterans Affairs who is acting in the scope of such
employment or contract; and
(BB)registered under section 303(f) [21 USCS §
823(f)] in any State or is utilizing the registration of a
hospital or clinic operated by the Department of
Veterans Affairs registered under section 303(f) [21
USCS § 823(f)];
(B)is being conducted while the patient is being
treated by, and in the physical presence of, a
practitioner—
(i)acting in the usual course of professional practice;
(ii)acting in accordance with applicable State law;
and
(iii)registered under section 303(f) [21 USCS § 823(f)]
in the State in which the patient is located, unless
the practitioner—
(I)is exempted from such registration in all States
under section 302(d) [21 USCS § 822(d)]; or
(II)is—
(aa)an employee or contractor of the Department of
Veterans Affairs who is acting in the scope of such
employment or contract; and
(bb)registered under section 303(f) [21 USCS §
823(f)] in any State or is using the registration of a
hospital or clinic operated by the Department of
Veterans Affairs registered under section 303(f) [21
USCS § 823(f)];
(C)is being conducted by a practitioner—

37a
(i)who is an employee or contractor of the Indian
Health Service, or is working for an Indian tribe or
tribal organization under its contract or compact with
the Indian Health Service under the Indian SelfDetermination and Education Assistance Act;
(ii)acting within the scope of the employment,
contract, or compact described in clause (i); and
(iii)who is designated as an Internet Eligible
Controlled Substances Provider by the Secretary
under section 311(g)(2) [21 USCS § 831(g)(2)];
(D)
(i)is being conducted during a public health
emergency declared by the Secretary under section
319 of the Public Health Service Act [42 USCS §
247d]; and
(ii)involves patients located in such areas, and such
controlled substances, as the Secretary, with the
concurrence of the Attorney General, designates,
provided that such designation shall not be subject to
the procedures prescribed by subchapter II of chapter
5 of title 5, United States Code [5 USCS §§ 551 et
seq.];
(E)is being conducted by a practitioner who has
obtained from the Attorney General a special
registration under section 311(h) [21 USCS § 831(h)];
(F)is being conducted—
(i)in a medical emergency situation—
(I)that prevents the patient from being in the
physical presence of a practitioner registered under
section 303(f) [21 USCS § 823(f)] who is an employee
or contractor of the Veterans Health Administration
acting in the usual course of business and

38a
employment and within the scope of the official duties
or contract of that employee or contractor;
(II)that prevents the patient from being physically
present at a hospital or clinic operated by the
Department of Veterans Affairs registered under
section 303(f) [21 USCS § 823(f)];
(III)during which the primary care practitioner of the
patient or a practitioner otherwise practicing
telemedicine within the meaning of this paragraph is
unable to provide care or consultation; and (IV)that
requires immediate intervention by a health care
practitioner using controlled substances to prevent
what the practitioner reasonably believes in good
faith will be imminent and serious clinical
consequences, such as further injury or death; and
(ii)by a practitioner that—
(I)is an employee or contractor of the Veterans Health
Administration acting within the scope of that
employment or contract;
(II)is registered under section 303(f) [21 USCS §
823(f)] in any State or is utilizing the registration of a
hospital or clinic operated by the Department of
Veterans Affairs registered under section 303(f) [21
USCS § 823(f)]; and
(III)issues a controlled substance prescription in this
emergency context that is limited to a maximum of a
5-day supply which may not be extended or refilled;
or
(G)is being conducted under any other circumstances
that the Attorney General and the Secretary have
jointly, by regulation, determined to be consistent
with effective controls against diversion and

39a
otherwise consistent with the public health and
safety.
(55)The term “refilling prescriptions for controlled
substances in schedule III, IV, or V”—
(A)means the dispensing of a controlled substance in
schedule III, IV, or V in accordance with refill
instructions issued by a practitioner as part of a valid
prescription that meets the requirements of
subsections (b) and (c) of section 309 [21 USCS § 829],
as appropriate; and
(B)does not include the issuance of a new prescription
to an individual for a controlled substance that
individual was previously prescribed.
(56)The term “filling new prescriptions for controlled
substances in schedule III, IV, or V” means filling a
prescription for an individual for a controlled
substance in schedule III, IV, or V, if—
(A)the pharmacy dispensing that prescription has
previously dispensed to the patient a controlled
substance other than by means of the Internet and
pursuant to the valid prescription of a practitioner
that meets the applicable requirements of subsections
(b) and (c) of section 309 [21 USCS § 829] (in this
paragraph referred to as the “original prescription”);
(B)the pharmacy contacts the practitioner who issued
the original prescription at the request of that
individual to determine whether the practitioner will
authorize the issuance of a new prescription for that
individual for the controlled substance described in
subparagraph (A); and
(C)the practitioner, acting in the usual course of
professional practice, determines there is a legitimate

40a
medical purpose for the issuance of the new
prescription.
(57)The term “suspicious order” may include, but is
not limited to—
(A)an order of a controlled substance of unusual size;
(B)an order of a controlled substance deviating
substantially from a normal pattern; and
(C)orders of
frequency.

controlled

substances

of

unusual

[(58)] (57)The term “serious drug felony” means an
offense described in section 924(e)(2) of title 18, United
States Code, for which—
(A)the offender served a term of imprisonment of
more than 12 months; and
(B)the offender’s release from any term of
imprisonment was within 15 years of the
commencement of the instant offense.
[(59)] (58)The term “serious violent felony” means—
(A)an offense described in section 3559(c)(2) of title
18, United States Code, for which the offender served
a term of imprisonment of more than 12 months; and
(B)any offense that would be a felony violation of
section 113 of title 18, United States Code, if the
offense were committed in the special maritime and
territorial jurisdiction of the United States, for which
the offender served a term of imprisonment of more
than 12 months.

41a
HISTORY:
Act Oct. 27, 1970, P. L. 91-513, Title II, Part A, § 102,
84 Stat. 1242; May 14, 1974, P. L. 93-281, § 2, 88 Stat.
124; Nov. 10, 1978, P. L. 95-633, Title I, § 102(b), 92
Stat. 3772; Nov. 30, 1979, P. L. 96-132, § 16(a), 93
Stat. 1049; Oct. 12, 1984, P. L. 98-473, Title II, Ch V,
Part B, § 507, 98 Stat. 2071; Oct. 19, 1984, P. L. 98509, Title III, § 301(a), 98 Stat. 2364; Oct. 27, 1986, P.
L. 99-570, Title I, Subtitle A, § 1003(b), Subtitle E, §
1203, Subtitle Q, § 1870, 100 Stat. 3207-6, 3207-13,
3207-56; Nov. 10, 1986, P. L. 99-646, § 83, 100 Stat.
3619; Nov. 18, 1988, P. L. 100-690, Title VI, Subtitle
A, § 6054, 102 Stat. 4316; Nov. 29, 1990, P. L. 101647, Title XIX, § 1902(b), Title XXIII, § 2301, Title
XXXV, § 3599I, 104 Stat. 4852, 4858, 4932; Dec. 17,
1993, P. L. 103-200, §§ 2(a), 7–9(a), 107 Stat. 2333,
2340; Sept. 13, 1994, P. L. 103-322, Title IX, Subtitle
A, § 90105(d), Title XXXIII, § 330024(a), (b), (d)(1),
108 Stat. 1988, 2150; Oct. 3, 1996, P. L. 104-237, Title
II, §§ 204(a), 209, Title IV, § 401(a), (b), 110 Stat.
3102, 3104, 3107; Oct. 11, 1996, P. L. 104-294, Title
VI, §§ 604(b)(4), 607(j), 110 Stat. 3506, 3512; Nov. 21,
1997, P. L. 105-115, Title I, Subtitle B, § 126(c)(3), 111
Stat. 2328; Feb. 18, 2000, P. L. 106-172, §§ 3(c), 5(a),
114 Stat. 9, 10; Oct. 17, 2000, P. L. 106-310, Div B,
Title XXXVI, Subtitle A, Part II, § 3622(a), 114 Stat.
1231; Nov. 2, 2002, P. L. 107-273, Div B, Title IV, §
4002(c)(1), 116 Stat. 1808; Oct. 22, 2004, P. L. 108358, § 2(a), 118 Stat. 1661; Jan. 5, 2006, P. L. 109-162,
Title XI, Subtitle C, § 1180, 119 Stat. 3126; March 9,
2006, P. L. 109-177, Title VII, Subtitle A, §§ 711(a)(1),
(2)(A), 712(a)(1), 120 Stat. 256, 263; Oct. 15, 2008, P.
L. 110-425, § 3(a), 122 Stat. 4821; Dec. 18, 2014, P. L.
113-260, § 2(a), 128 Stat. 2929; July 22, 2016, P. L.
114-198, Title III, § 303(a)(2), 130 Stat. 722; Oct. 24,

42a
2018, P.L. 115-271, Title III, Subtitle B, Ch. 1, §
3202(c), Ch. 9, § 3292(a), 132 Stat. 3945, 3956; Dec.
20, 2018, P.L. 115-334, Title XII, Subtitle F, §
12619(a), 132 Stat. 5018; Dec. 21, 2018, P.L. 115-391,
Title IV, § 401(a)(1), 132 Stat. 5220.

43a
21 USCS § 829
Current through Public Law 116-140,
approved April 28, 2020.
United States Code Service > TITLE 21. FOOD
AND DRUGS (Chs. 1 — 28) > CHAPTER 13.
DRUG ABUSE PREVENTION AND CONTROL
(§§
801
—
971)
>
CONTROL
AND
ENFORCEMENT
(§§
801
—
904)
>
REGISTRATION
OF
MANUFACTURERS,
DISTRIBUTORS,
AND
DISPENSERS
OF
CONTROLLED SUBSTANCES (§§ 821 — 832)
§ 829. Prescriptions
(a) Schedule II substances. Except when dispensed
directly by a practitioner, other than a pharmacist, to
an ultimate user, no controlled substance in schedule
II, which is a prescription drug as determined under
the Federal Food, Drug, and Cosmetic Act [21 USCS
§§ 301 et seq.], may be dispensed without the written
prescription of a practitioner, except that in
emergency situations, as prescribed by the Secretary
by regulation after consultation with the Attorney
General, such drug may be dispensed upon oral
prescription in accordance with section 503(b) of that
Act [21 USCS § 353(b)]. Prescriptions shall be
retained in conformity with the requirements of
section 307 of this title [21 USCS § 827]. No
prescription for a controlled substance in schedule II
may be refilled.
(b) Schedule III and IV substances. Except when
dispensed directly by a practitioner, other than a
pharmacist, to an ultimate user, no controlled
substance in schedule III or IV, which is a
prescription drug as determined under the Federal

44a
Food, Drug, and Cosmetic Act [21 USCS §§ 301 et
seq.], may be dispensed without a written or oral
prescription in conformity with section 503(b) of that
Act [21 USCS § 353(b)]. Such prescriptions may not
be filled or refilled more than six months after the
date thereof or be refilled more than five times after
the date of the prescription unless renewed by the
practitioner.
(c) Schedule V substances. No controlled substance
in schedule V which is a drug may be distributed or
dispensed other than for a medical purpose.
(d) Non-prescription drugs with abuse
potential. Whenever it appears to the Attorney
General that a drug not considered to be a
prescription drug under the Federal Food, Drug, and
Cosmetic Act [21 USCS §§ 301 et seq.] should be so
considered because of its abuse potential, he shall so
advise the Secretary and furnish to him all available
data relevant thereto.
(e) Controlled substances dispensed by means
of the Internet.
(1)No controlled substance that is a prescription drug
as determined under the Federal Food, Drug, and
Cosmetic Act [21 USCS §§ 301 et seq.] may be
delivered, distributed, or dispensed by means of the
Internet without a valid prescription.
(2)As used in this subsection:
(A)The term “valid prescription” means a prescription
that is issued for a legitimate medical purpose in the
usual course of professional practice by—
(i)a practitioner who has conducted at least 1 inperson medical evaluation of the patient; or

45a
(ii)a covering practitioner.
(B)
(i)The term “in-person medical evaluation” means a
medical evaluation that is conducted with the patient
in the physical presence of the practitioner, without
regard to whether portions of the evaluation are
conducted by other health professionals.
(ii)Nothing in clause (i) shall be construed to imply
that 1 in-person medical evaluation demonstrates
that a prescription has been issued for a legitimate
medical purpose within the usual course of
professional practice.
(C)The term “covering practitioner” means, with
respect to a patient, a practitioner who conducts a
medical evaluation (other than an in-person medical
evaluation) at the request of a practitioner who—
(i)has conducted at least 1 in-person medical
evaluation of the patient or an evaluation of the
patient through the practice of telemedicine, within
the previous 24 months; and
(ii)is temporarily unavailable
evaluation of the patient.

to

conduct

the

(3)Nothing in this subsection shall apply to—
(A)the delivery, distribution, or dispensing of a
controlled substance by a practitioner engaged in the
practice of telemedicine; or
(B)the dispensing or selling of a controlled substance
pursuant to practices as determined by the Attorney
General by regulation, which shall be consistent with
effective controls against diversion.

46a
(f) Partial fills of schedule II controlled
substances.
(1)Partial fills. A prescription for a controlled
substance in schedule II may be partially filled if—
(A)it is not prohibited by State law;
(B)the prescription is written and filled in accordance
with this title, regulations prescribed by the Attorney
General, and State law;
(C)the partial fill is requested by the patient or the
practitioner that wrote the prescription; and
(D)the total quantity dispensed in all partial fillings
does not exceed the total quantity prescribed.
(2)Remaining portions.
(A)In general. Except as provided in subparagraph
(B), remaining portions of a partially filled
prescription for a controlled substance in schedule
II—
(i)may be filled; and
(ii)shall be filled not later than 30 days after the date
on which the prescription is written.
(B)Emergency situations. In emergency situations, as
described in subsection (a), the remaining portions of
a partially filled prescription for a controlled
substance in schedule II—
(i)may be filled; and
(ii)shall be filled not later than 72 hours after the
prescription is issued.
(3)Currently lawful partial fills. Notwithstanding
paragraph (1) or (2), in any circumstance in which, as
of the day before the date of enactment of this

47a
subsection [enacted July 22, 2016], a prescription for
a controlled substance in schedule II may be lawfully
partially filled, the Attorney General may allow such
a prescription to be partially filled.
HISTORY:
Act Oct. 27, 1970, P. L. 91-513, Title II, Part C, § 309,
84 Stat. 1260; Oct. 15, 2008, P. L. 110-425, § 2, 122
Stat. 4820; July 22, 2016, P. L. 114-198, Title VII, §
702(a), 130 Stat. 740.

48a
21 USCS § 841, Part 1 of 6
Current through Public Law 116-140,
approved April 28, 2020.
United States Code Service > TITLE 21. FOOD
AND DRUGS (Chs. 1 — 28) > CHAPTER 13.
DRUG ABUSE PREVENTION AND CONTROL
(§§
801
—
971)
>
CONTROL
AND
ENFORCEMENT (§§ 801 — 904) > OFFENSES
AND PENALTIES (§§ 841 — 865)
§ 841. Prohibited acts A
(a) Unlawful acts. Except as authorized by this title,
it shall be unlawful for any person knowingly or
intentionally—
(1)to manufacture, distribute, or dispense, or possess
with intent to manufacture, distribute, or dispense, a
controlled substance; or
(2)to create, distribute, or dispense, or possess with
intent to distribute or dispense, a counterfeit
substance.
(b) Penalties. Except as otherwise provided in
section 409, 418, 419, or 420 [21 USCS § 849, 859,
860, or 861], any person who violates subsection (a) of
this section shall be sentenced as follows:
(1)
(A)In the case of a violation of subsection (a) of this
section involving—
(i)1 kilogram or more of a mixture or substance
containing a detectable amount of heroin;
(ii)5 kilograms or more of a mixture or substance
containing a detectable amount of—

49a
(I)coca leaves, except coca leaves and extracts of coca
leaves from which cocaine, ecgonine, and derivatives
of ecgonine or their salts have been removed;
(II)cocaine, its salts, optical and geometric isomers,
and salts of isomers;
(III)ecgonine, its derivatives, their salts, isomers, and
salts of isomers; or
(IV)any compound, mixture, or preparation which
contains any quantity of any of the substances
referred to in subclauses (I) through (III);
(iii)280 grams or more of a mixture or substance
described in clause (ii) which contains cocaine base;
(iv)100 grams or more of phencyclidine (PCP) or 1
kilogram or more of a mixture or substance containing
a detectable amount of phencyclidine (PCP);
(v)10 grams or more of a mixture or substance
containing a detectable amount of lysergic acid
diethylamide (LSD);
(vi)400 grams or more of a mixture or substance
containing a detectable amount of N-phenyl-N- [1-(2phenylethyl)-4-piperidinyl] propanamide or 100
grams or more of a mixture or substance containing a
detectable amount of any analogue of N-phenyl-N- [1(2-phenylethyl)-4-piperidinyl] propanamide;
(vii)1000 kilograms or more of a mixture or substance
containing a detectable amount of marihuana, or
1,000 or more marihuana plants regardless of weight;
or
(viii)50 grams or more of methamphetamine, its
salts, isomers, and salts of its isomers or 500 grams
or more of a mixture or substance containing a
detectable amount of methamphetamine, its salts,

50a
isomers, or salts of its isomers; such person shall be
sentenced to a term of imprisonment which may not
be less than 10 years or more than life and if death or
serious bodily injury results from the use of such
substance shall be not less than 20 years or more than
life, a fine not to exceed the greater of that authorized
in accordance with the provisions of title 18, United
States Code, or $10,000,000 if the defendant is an
individual or $50,000,000 if the defendant is other
than an individual, or both. If any person commits
such a violation after a prior conviction for a serious
drug felony or serious violent felony has become final,
such person shall be sentenced to a term of
imprisonment of not less than 15 years and not more
than life imprisonment and if death or serious bodily
injury results from the use of such substance shall be
sentenced to life imprisonment, a fine not to exceed
the greater of twice that authorized in accordance
with the provisions of title 18, United States Code, or
$20,000,000 if the defendant is an individual or
$75,000,000 if the defendant is other than an
individual, or both. If any person commits a violation
of this subparagraph or of section 409, 418, 419, or
420 [21 USCS § 849, 859, 860, or 861] after 2 or more
prior convictions for a serious drug felony or serious
violent felony have become final, such person shall be
sentenced to a term of imprisonment of not less than
25 years and fined in accordance with the preceding
sentence. Notwithstanding section 3583 of title 18,
any sentence under this subparagraph shall, in the
absence of such a prior conviction, impose a term of
supervised release of at least 5 years in addition to
such term of imprisonment and shall, if there was
such a prior conviction, impose a term of supervised
release of at least 10 years in addition to such term of

51a
imprisonment. Notwithstanding any other provision
of law, the court shall not place on probation or
suspend the sentence of any person sentenced under
this subparagraph. No person sentenced under this
subparagraph shall be eligible for parole during the
term of imprisonment imposed therein.
(B)In the case of a violation of subsection (a) of this
section involving—
(i)100 grams or more of a mixture or substance
containing a detectable amount of heroin;
(ii)500 grams or more of a mixture or substance
containing a detectable amount of—
(I)coca leaves, except coca leaves and extracts of coca
leaves from which cocaine, ecgonine, and derivatives
of ecgonine or their salts have been removed;
(II)cocaine, its salts, optical and geometric isomers,
and salts of isomers;
(III)ecgonine, its derivatives, their salts, isomers, and
salts of isomers; or
(IV)any compound, mixture, or preparation which
contains any quantity of any of the substances
referred to in subclauses (I) through (III);
(iii)28 grams or more of a mixture or substance
described in clause (ii) which contains cocaine base;
(iv)10 grams or more of phencyclidine (PCP) or 100
grams or more of a mixture or substance containing a
detectable amount of phencyclidine (PCP);
(v)1 gram or more of a mixture or substance
containing a detectable amount of lysergic acid
diethylamide (LSD);

52a
(vi)40 grams or more of a mixture or substance
containing a detectable amount of N-phenyl-N- [1-(2phenylethyl)-4-piperidinyl] propanamide or 10 grams
or more of a mixture or substance containing a
detectable amount of any analogue of N-phenyl-N- [1(2-phenylethyl)-4-piperidinyl] propanamide;
(vii)100 kilograms or more of a mixture or substance
containing a detectable amount of marihuana, or 100
or more marihuana plants regardless of weight; or
(viii)5 grams or more of methamphetamine, its salts,
isomers, and salts of its isomers or 50 grams or more
of a mixture or substance containing a detectable
amount of methamphetamine, its salts, isomers, or
salts of its isomers; such person shall be sentenced to
a term of imprisonment which may not be less than 5
years and not more than 40 years and if death or
serious bodily injury results from the use of such
substance shall be not less than 20 years or more than
life, a fine not to exceed the greater of that authorized
in accordance with the provisions of title 18, United
States Code, or $5,000,000 if the defendant is an
individual or $25,000,000 if the defendant is other
than an individual, or both. If any person commits
such a violation after a prior conviction for a serious
drug felony or serious violent felony has become final,
such person shall be sentenced to a term of
imprisonment which may not be less than 10 years
and not more than life imprisonment and if death or
serious bodily injury results from the use of such
substance shall be sentenced to life imprisonment, a
fine not to exceed the greater of twice that authorized
in accordance with the provisions of title 18, United
States Code, or $8,000,000 if the defendant is an
individual or $50,000,000 if the defendant is other
than an individual, or both. Notwithstanding section

53a
3583 of title 18, any sentence imposed under this
subparagraph shall, in the absence of such a prior
conviction, include a term of supervised release of at
least 4 years in addition to such term of imprisonment
and shall, if there was such a prior conviction, include
a term of supervised release of at least 8 years in
addition
to
such
term
of
imprisonment.
Notwithstanding any other provision of law, the court
shall not place on probation or suspend the sentence
of any person sentenced under this subparagraph. No
person sentenced under this subparagraph shall be
eligible for parole during the term of imprisonment
imposed therein.
(C)In the case of a controlled substance in schedule I
or II, gamma hydroxybutyric acid (including when
scheduled as an approved drug product for purposes
of section 3(a)(1)(B) of the Hillory J. Farias and
Samantha Reid Date-Rape Drug Prohibition Act of
1999 [21 USCS § 812 note]), or 1 gram of
flunitrazepam, except as provided in subparagraphs
(A), (B), and (D), such person shall be sentenced to a
term of imprisonment of not more than 20 years and
if death or serious bodily injury results from the use
of such substance shall be sentenced to a term of
imprisonment of not less than twenty years or more
than life, a fine not to exceed the greater of that
authorized in accordance with the provisions of title
18, United States Code, or $1,000,000 if the defendant
is an individual or $5,000,000 if the defendant is other
than an individual, or both. If any person commits
such a violation after a prior conviction for a felony
drug offense has become final, such person shall be
sentenced to a term of imprisonment of not more than
30 years and if death or serious bodily injury results
from the use of such substance shall be sentenced to

54a
life imprisonment, a fine not to exceed the greater of
twice that authorized in accordance with the
provisions of title 18, United States Code, or
$2,000,000 if the defendant is an individual or
$10,000,000 if the defendant is other than an
individual, or both. Notwithstanding section 3583 of
title 18, any sentence imposing a term of
imprisonment under this paragraph shall, in the
absence of such a prior conviction, impose a term of
supervised release of at least 3 years in addition to
such term of imprisonment and shall, if there was
such a prior conviction, impose a term of supervised
release of at least 6 years in addition to such term of
imprisonment. Notwithstanding any other provision
of law, the court shall not place on probation or
suspend the sentence of any person sentenced under
the provisions of this subparagraph which provide for
a mandatory term of imprisonment if death or serious
bodily injury results, nor shall a person so sentenced
be eligible for parole during the term of such a
sentence.
(D)In the case of less than 50 kilograms of
marihuana, except in the case of 50 or more
marihuana plants regardless of weight, 10 kilograms
of hashish, or one kilogram of hashish oil, such person
shall, except as provided in paragraphs (4) and (5) of
this subsection, be sentenced to a term of
imprisonment of not more than 5 years, a fine not to
exceed the greater of that authorized in accordance
with the provisions of title 18, United States Code, or
$250,000 if the defendant is an individual or
$1,000,000 if the defendant is other than an
individual, or both. If any person commits such a
violation after a prior conviction for a felony drug
offense has become final, such person shall be

55a
sentenced to a term of imprisonment of not more than
10 years, a fine not to exceed the greater of twice that
authorized in accordance with the provisions of title
18, United States Code, or $500,000 if the defendant
is an individual or $2,000,000 if the defendant is other
than an individual, or both. Notwithstanding section
3583 of title 18, any sentence imposing a term of
imprisonment under this paragraph shall, in the
absence of such a prior conviction, impose a term of
supervised release of at least 2 years in addition to
such term of imprisonment and shall, if there was
such a prior conviction, impose a special parole term
of at least 4 years in addition to such term of
imprisonment.
(E)
(i)Except as provided in subparagraphs (C) and (D),
in the case of any controlled substance in schedule III,
such person shall be sentenced to a term of
imprisonment of not more than 10 years and if death
or serious bodily injury results from the use of such
substance shall be sentenced to a term of
imprisonment of not more than 15 years, a fine not to
exceed the greater of that authorized in accordance
with the provisions of title 18, United States Code, or
$500,000 if the defendant is an individual or
$2,500,000 if the defendant is other than an
individual, or both.
(ii)If any person commits such a violation after a prior
conviction for a felony drug offense has become final,
such person shall be sentenced to a term of
imprisonment of not more than 20 years and if death
or serious bodily injury results from the use of such
substance shall be sentenced to a term of
imprisonment of not more than 30 years, a fine not to

56a
exceed the greater of twice that authorized in
accordance with the provisions of title 18, United
States Code, or $1,000,000 if the defendant is an
individual or $5,000,000 if the defendant is other than
an individual, or both.
(iii)Any sentence imposing a term of imprisonment
under this subparagraph shall, in the absence of such
a prior conviction, impose a term of supervised release
of at least 2 years in addition to such term of
imprisonment and shall, if there was such a prior
conviction, impose a term of supervised release of at
least 4 years in addition to such term of
imprisonment.
(2)In the case of a controlled substance in schedule
IV, such person shall be sentenced to a term of
imprisonment of not more than 5 years, a fine not to
exceed the greater of that authorized in accordance
with the provisions of title 18, United States Code, or
$250,000 if the defendant is an individual or
$1,000,000 if the defendant is other than an
individual, or both. If any person commits such a
violation after a prior conviction for a felony drug
offense has become final, such person shall be
sentenced to a term of imprisonment of not more than
10 years, a fine not to exceed the greater of twice that
authorized in accordance with the provisions of title
18, United States Code, or $500,000 if the defendant
is an individual or $2,000,000 if the defendant is other
than an individual, or both. Any sentence imposing a
term of imprisonment under this paragraph shall, in
the absence of such a prior conviction, impose a term
of supervised release of at least one year in addition
to such term of imprisonment and shall, if there was
such a prior conviction, impose a special parole term

57a
of at least 2 years in addition to such term of
imprisonment.
(3)In the case of a controlled substance in schedule V,
such person shall be sentenced to a term of
imprisonment of not more than one year, a fine not to
exceed the greater of that authorized in accordance
with the provisions of title 18, United States Code, or
$100,000 if the defendant is an individual or $250,000
if the defendant is other than an individual, or both.
If any person commits such a violation after a prior
conviction for a felony drug offense has become final,
such person shall be sentenced to a term of
imprisonment of not more than 4 years, a fine not to
exceed the greater of twice that authorized in
accordance with the provisions of title 18, United
States Code, or $200,000 if the defendant is an
individual or $500,000 if the defendant is other than
an individual, or both. Any sentence imposing a term
of imprisonment under this paragraph may, if there
was a prior conviction, impose a term of supervised
release of not more than 1 year, in addition to such
term of imprisonment.
(4)Notwithstanding paragraph (1)(D) of this
subsection, any person who violates subsection (a) of
this section by distributing a small amount of
marihuana for no remuneration shall be treated as
provided in section 404 [21 USCS § 844] and section
3607 of title 18, United States Code.
(5)Any person who violates subsection (a) of this
section by cultivating or manufacturing a controlled
substance on Federal property shall be imprisoned as
provided in this subsection and shall be fined any
amount not to exceed—

58a
(A)the amount authorized in accordance with this
section;
(B)the amount authorized in accordance with the
provisions of title 18, United States Code;
(C)$500,000 if the defendant is an individual; or
(D)$1,000,000 if the defendant is other than an
individual; or both.
(6)Any person who violates subsection (a), or
attempts to do so, and knowingly or intentionally uses
a poison, chemical, or other hazardous substance on
Federal land, and, by such use—
(A)creates a serious hazard to humans, wildlife, or
domestic animals,
(B)degrades or harms the environment or natural
resources, or
(C)pollutes an aquifer, spring, stream, river, or body
of water, shall be fined in accordance with title 18,
United States Code, or imprisoned not more than five
years, or both.
(7)Penalties for distribution.
(A)In general. Whoever, with intent to commit a
crime of violence, as defined in section 16 of title 18,
United States Code (including rape), against an
individual, violates subsection (a) by distributing a
controlled substance or controlled substance analogue
to that individual without that individual’s
knowledge, shall be imprisoned not more than 20
years and fined in accordance with title 18, United
States Code.
(B)Definition. For purposes of this paragraph, the
term “without that individual’s knowledge” means

59a
that the individual is unaware that a substance with
the ability to alter that individual’s ability to appraise
conduct or to decline participation in or communicate
unwillingness to participate in conduct is
administered to the individual.
(c) Offenses involving listed chemicals. Any
person who knowingly or intentionally—
(1)possesses a listed chemical with intent to
manufacture a controlled substance except as
authorized by this title;
(2)possesses or distributes a listed chemical knowing,
or having reasonable cause to believe, that the listed
chemical will be used to manufacture a controlled
substance except as authorized by this title; or
(3)with the intent of causing the evasion of the
recordkeeping or reporting requirements of section
310 [21 USCS § 830], or the regulations issued under
that section, receives or distributes a reportable
amount of any listed chemical in units small enough
so that the making of records or filing of reports under
that section is not required; shall be fined in
accordance with title 18, United States Code, or
imprisoned not more than 20 years in the case of a
violation of paragraph (1) or (2) involving a list I
chemical or not more than 10 years in the case of a
violation of this subsection other than a violation of
paragraph (1) or (2) involving a list I chemical, or
both.
(d) Boobytraps on Federal property; penalties;
“boobytrap” defined.
(1)Any person who assembles, maintains, places, or
causes to be placed a boobytrap on Federal property
where a controlled substance is being manufactured,

60a
distributed, or dispensed shall be sentenced to a term
of imprisonment for not more than 10 years or fined
under title 18, United States Code, or both.
(2)If any person commits such a violation after 1 or
more prior convictions for an offense punishable
under this subsection, such person shall be sentenced
to a term of imprisonment of not more than 20 years
or fined under title 18, United States Code, or both.
(3)For the purposes of this subsection, the term
“boobytrap” means any concealed or camouflaged
device designed to cause bodily injury when triggered
by any action of any unsuspecting person making
contact with the device. Such term includes guns,
ammunition, or explosive devices attached to trip
wires or other triggering mechanisms, sharpened
stakes, and lines or wires with hooks attached.
(e) Ten-year injunction as additional penalty. In
addition to any other applicable penalty, any person
convicted of a felony violation of this section relating
to the receipt, distribution, manufacture, exportation,
or importation of a listed chemical may be enjoined
from engaging in any transaction involving a listed
chemical for not more than ten years.
(f) Wrongful distribution or possession of listed
chemicals.
(1)Whoever knowingly distributes a listed chemical
in violation of this title (other than in violation of a
recordkeeping or reporting requirement of section 310
[21 USCS § 830]) shall, except to the extent that
paragraph (12), (13), or (14) of section 402(a) [21
USCS § 842(a)] applies, be fined under title 18,
United States Code, or imprisoned not more than 5
years, or both.

61a
(2)Whoever possesses any listed chemical, with
knowledge that the recordkeeping or reporting
requirements of section 310 [21 USCS § 830] have not
been adhered to, if, after such knowledge is acquired,
such person does not take immediate steps to remedy
the violation shall be fined under title 18, United
States Code, or imprisoned not more than one year, or
both.
(g) Internet sales of date rape drugs.
(1)Whoever knowingly uses the Internet to distribute
a date rape drug to any person, knowing or with
reasonable cause to believe that—
(A)the drug would be used in the commission of
criminal sexual conduct; or
(B)the person is not an authorized purchaser; shall be
fined under this title or imprisoned not more than 20
years, or both.
(2)As used in this subsection:
(A)The term “date rape drug” means—
(i)gamma hydroxybutyric acid (GHB) or any
controlled substance analogue of GHB, including
gamma butyrolactone (GBL) or 1,4-butanediol;
(ii)ketamine;
(iii)flunitrazepam; or
(iv)any substance which the Attorney General
designates, pursuant to the rulemaking procedures
prescribed by section 553 of title 5, United States Code
[5 USCS § 553], to be used in committing rape or
sexual assault.

62a
The Attorney General is authorized to remove any
substance from the list of date rape drugs pursuant to
the same rulemaking authority.
(B)The term “authorized purchaser” means any of the
following persons, provided such person has acquired
the controlled substance in accordance with this Act:
(i)A person with a valid prescription that is issued for
a legitimate medical purpose in the usual course of
professional practice that is based upon a qualifying
medical relationship by a practitioner registered by
the Attorney General. A “qualifying medical
relationship” means a medical relationship that
exists when the practitioner has conducted at least 1
medical evaluation with the authorized purchaser in
the physical presence of the practitioner, without
regard to whether portions of the evaluation are
conducted by other heath [health] professionals. The
preceding sentence shall not be construed to imply
that 1 medical evaluation demonstrates that a
prescription has been issued for a legitimate medical
purpose within the usual course of professional
practice.
(ii)Any practitioner or other registrant who is
otherwise authorized by their registration to
dispense, procure, purchase, manufacture, transfer,
distribute, import, or export the substance under this
Act.
(iii)A person or entity providing documentation that
establishes the name, address, and business of the
person or entity and which provides a legitimate
purpose for using any “date rape drug” for which a
prescription is not required.

63a
(3)The Attorney General is authorized to promulgate
regulations for record-keeping and reporting by
persons handling 1,4-butanediol in order to
implement and enforce the provisions of this section.
Any record or report required by such regulations
shall be considered a record or report required under
this Act.
(h) Offenses involving dispensing of controlled
substances by means of the Internet.
(1)In general. It shall be unlawful for any person to
knowingly or intentionally—
(A)deliver, distribute, or dispense a controlled
substance by means of the Internet, except as
authorized by this title; or
(B)aid or abet (as such terms are used in section 2 of
title 18, United States Code) any activity described in
subparagraph (A) that is not authorized by this title.
(2)Examples. Examples of activities that violate
paragraph (1) include, but are not limited to,
knowingly or intentionally—
(A)delivering, distributing, or dispensing a controlled
substance by means of the Internet by an online
pharmacy that is not validly registered with a
modification authorizing such activity as required by
section 303(f) [21 USCS § 823(f)] (unless exempt from
such registration);
(B)writing a prescription for a controlled substance
for the purpose of delivery, distribution, or
dispensation by means of the Internet in violation of
section 309(e) [21 USCS § 829(e)];
(C)serving as an agent, intermediary, or other entity
that causes the Internet to be used to bring together

64a
a buyer and seller to engage in the dispensing of a
controlled substance in a manner not authorized by
sections [section] 303(f) or 309(e) [21 USCS § 823(f) or
829(e)];
(D)offering to fill a prescription for a controlled
substance based solely on a consumer’s completion of
an online medical questionnaire; and
(E)making a material false, fictitious, or fraudulent
statement or representation in a notification or
declaration under subsection (d) or (e), respectively, of
section 311 [21 USCS § 831].
(3)Inapplicability.
(A)This subsection does not apply to—
(i)the delivery, distribution, or dispensation of
controlled substances by nonpractitioners to the
extent authorized by their registration under this
title;
(ii)the placement on the Internet of material that
merely advocates the use of a controlled substance or
includes pricing information without attempting to
propose or facilitate an actual transaction involving a
controlled substance; or
(iii)except as provided in subparagraph (B), any
activity that is limited to—
(I)the provision of a telecommunications service, or of
an Internet access service or Internet information
location tool (as those terms are defined in section 231
of the Communications Act of 1934 [47 USCS § 231]);
or
(II)the transmission, storage, retrieval, hosting,
formatting, or translation (or any combination
thereof) of a communication, without selection or

65a
alteration of the content of the communication, except
that deletion of a particular communication or
material made by another person in a manner
consistent with section 230(c) of the Communications
Act of 1934 [47 USCS § 230(c)] shall not constitute
such selection or alteration of the content of the
communication.
(B)The exceptions under subclauses (I) and (II) of
subparagraph (A)(iii) shall not apply to a person
acting in concert with a person who violates
paragraph (1).
(4)Knowing or intentional violation. Any person who
knowingly or intentionally violates this subsection
shall be sentenced in accordance with subsection (b).
HISTORY:
Act Oct. 27, 1970, P. L. 91-513, Title II, Part D, § 401,
84 Stat. 1260; Nov. 10, 1978, P. L. 95-633, Title II, §
201, 92 Stat. 3774; Sept. 26, 1980, P. L. 96-359, § 8(c),
94 Stat. 1194; Oct. 12, 1984, P. L. 98-473, Title II, Ch
II, § 224(a)(2), Ch V, Subch, Part A, Subpart, §§ 502,
503(b)(1)(2), 98 Stat. 2030, 2068, 2070; Oct. 27, 1986,
P. L. 99-570, Title I, Subtitle A, §§ 1002, 1003(a),
1004(a) Subtitle C, § 1103, Title XV, § 15005, 100 Stat.
3207-2, 3207-5, 3207-6, 3207-11, 3207-192; Nov. 18,
1988, P. L. 100-690, Title VI, Subtitle A, § 6055,
Subtitle H, §§ 6254(h), 6265(h), Subtitle N, §§ 6452(a),
6470(g), (h), 6479, 102 Stat. 4318, 4366, 4367, 4371,
4378, 4379, 4381; Nov. 29, 1990, P. L. 101-647, Title
X, § 1002(e), Title XII, § 1202, Title XXXV, § 3599K,
104 Stat. 4828, 4830, 4932; Sept. 13, 1994, P. L. 103322, Title IX, Subtitle A, § 90105(a), (c), Title XVIII,
Subtitle B, 180201(b)(2)(A), 108 Stat. 1987, 1988,
2047; Oct. 3, 1996, P. L. 104-237, Title II, § 206(a),
Title III, § 302(a), 110 Stat. 3103, 3105; Oct. 13, 1996,

66a
P. L. 104-305, § 2(a), (b)(1), 110 Stat. 3807; Oct. 21,
1998, P. L. 105-277, Div E, § 2(a), 112 Stat. 2681-759;
Feb. 18, 2000, P. L. 106-172, §§ 3(b)(1), 5(b), 9, 114
Stat. 9, 10, 13; Nov. 2, 2002, P. L. 107-273, Div B, Title
III, § 3005(a), Title IV, § 4002(d)(2)(A), 116 Stat. 1805,
1809; March 9, 2006, P. L. 109-177, Title VII, Subtitle
A, § 711(f)(1)(B), Subtitle C, § 732, 120 Stat. 262, 270;
July 27, 2006, P. L. 109-248, Title II, § 201, 120 Stat.
611; Oct. 15, 2008, P. L. 110-425, § 3(e), (f), 122 Stat.
4828; Aug. 3, 2010, P. L. 111-220, §§ 2(a), 4(a), 124
Stat. 2372; Dec. 21, 2018, P.L. 115- 391, Title IV, §
401(a)(2), 132 Stat. 5220.

67a
as to one count should not control your verdict as to
the other counts.
Furthermore, the fact that another person entered
a plea of guilty to one or more of the crimes charged
is not evidence of guilt of the defendant as to any
crime charged. Moreover, you are not to be concerned
with the guilt of any other person not on trial in this
case.
The indictment charges that the offenses were
committed, quote, on or about, end quote, a certain
date. Although the government must prove beyond a
reasonable doubt that the offenses were committed on
a date reasonably near the date alleged in the
indictment, it is not necessary for the government to
prove that the offense was committed precisely on the
date charged.
A person acts knowingly if he acts intentionally
and voluntarily, and not because of ignorance,
mistake, accident or carelessness.
The intent of a person or the knowledge that a
person possesses at any given time may not ordinarily
be proven directly, because there is no way of directly
scrutinizing the workings of the human mind. In
determining the issue of what a person knew or what
a person intended at a particular time, you may
consider any statements made or acts done or omitted
by that person, and all other facts and circumstances
received in evidence which may aid in your
determination of that person's knowledge or intent.

68a
Inferences are simply deductions or conclusions
which reason and common sense lead you to draw
from the evidence received in the case. You may infer,
but you are certainly not required to infer, that a
person intends the natural and probable
consequences of acts knowingly done or knowingly
omitted. It is entirely up to you, however, to decide
what facts to find from the evidence received during
this trial.
You are instructed as a matter of law that
Oxycodone,
Oxymorphone,
Methadone
and
Alprazolam are controlled substances. It is solely for
you, however, to determine whether the government
proved beyond a reasonable doubt that the defendant,
Donovan Dave Dixon, committed the alleged narcotic
offenses involving those substances, as charged in the
indictment.
The term to distribute, as used in these
instructions, means to deliver or to transfer or to
attempt to deliver or to transfer possession or control
of something from one person to another. The term to
distribute includes writing a prescription for the
controlled substance at issue.
Count 1 of the indictment charges that beginning
in or about 2012, and continuing up to and including
April 6, 2015, in the Eastern District of North
Carolina and elsewhere, the defendant, Donovan
Dave Dixon, then a physician licensed to practice
medicine in the State of North Carolina, did
knowingly and intentionally combine, conspire,
confederate, agree, and have a tacit understanding

69a
with other persons, while acting and intending to act
outside the usual course of professional practice or not
for a legitimate medical purpose, to knowingly,
intentionally and unlawfully prescribe, dispense and
distribute quantities of Oxycodone, Oxymorphone
and Methadone, Schedule II controlled substances,
and a quantity of Alprazolam, a Schedule IV
controlled substance, in violation of Title 21, U.S.
Code, Section 841(a)(1), all in violation of Title 21,
United States Code, Section 846.
Section 846 of Title 21, United States Code, makes
it a crime for anyone to conspire or commit a violation
of certain controlled substance laws of the United
States. To sustain its burden of proof for the crime of
conspiracy to distribute and to possess with the intent
to distribute quantities or Oxycodone, Oxymorphone,
Methadone and Alprazolam, as charged in Count 1 in
the indictment, the government must prove the
following three elements beyond a reasonable doubt:
First: That the conspiracy, agreement or
understanding to commit the crime, as described in
Count 1 of the indictment, was formed, reached or
entered into by two or more persons;
Second: That at some time during the existence or
life of the conspiracy, agreement or understanding the
defendant, Donovan Dave Dixon, knew the purpose of
the conspiracy, agreement or understanding; and
Third: That with knowledge of the purpose of the
conspiracy, agreement or understanding the
defendant, Donovan Dave Dixon, then knowingly
joined the conspiracy, agreement or understanding.

70a
A criminal conspiracy is an agreement or a mutual
understanding knowingly made or knowingly entered
into by at least two people to violate the law by some
joint or common plan or course of action. A conspiracy
is, in a very true sense, a partnership in crime.
A conspiracy or agreement to violate the law, like
any other kind of agreement or understanding, need
not be formal, written or even expressed directly in
every detail.
The government must beyond a reasonable doubt
that the defendant, Donovan Dave Dixon, knowingly
entered into an agreement or understanding with at
least one other person that day, and perhaps others,
would violate the controlled substance statute by
means of some common plan or course of action, as
alleged in Count 1. It is proof of this conscious
understanding and deliberate agreement by the
alleged members that should be central to your
consideration of the charge of conspiracy.
To prove that a conspiracy or an illegal agreement
existed, the government is not required to produce a
written contract between the parties, or even produce
evidence of an expressed oral agreement spelling out
all of the details of the understanding.
To prove that a conspiracy existed, moreover, the
government is not required to show that all of the
people named in the indictment as members of the
conspiracy were, in fact, parties to the agreement or
that all of the members of the alleged conspiracy were
named or charged, or that all of the people whom the
evidence shows were actually members of the
conspiracy agreed to all of the means or methods set
out in the indictment.

71a
Unless the government proved beyond a
reasonable doubt that a conspiracy actually existed,
then you must acquit the defendant, Donovan Dave
Dixon, on Count 1.
Before the jury may find that the defendant,
Donovan Dave Dixon, became a member of the
conspiracy charged in Count 1 of the indictment, the
evidence in the case must show beyond a reasonable
doubt that the defendant knew the purpose or goal of
the agreement or understanding, and then knowingly
entered into the agreement, intending, in some way,
to accomplish the goal or purpose of the agreement.
A person may become a member of a conspiracy
without full knowledge of all of its details. If a person
knowingly joins a conspiracy during the life of the
conspiracy with an understanding of the unlawful
nature thereof on even one occasion, it is sufficient to
convict the defendant of conspiracy, even if he played
a lesser role in the conspiracy than other members of
the conspiracy.
Thus, if the evidence establishes beyond a
reasonable doubt that the defendant knowingly joined
the agreement specified in Count 1 of the indictment,
the fact that the defendant did not join the agreement
at its beginning or did not know all of the details of
the agreement, or did not participate in each act of the
agreement, or did not know all of the other
conspirators, or did not play a major role in
accomplishing the unlawful goal, is not important to
your decision regarding his membership in the
conspiracy.

72a
Merely associating with others and discussing
common goals, mere similarity of conduct between or
among such persons, merely being present at the
place where a crime takes place or is discussed,
merely being a relative of someone engaged in
criminal conduct, or even knowing about criminal
conduct, does not, of itself, make someone a member
of the conspiracy. Also, a person who has no
knowledge of the conspiracy, but he happens to act in
a way that advances some purpose of the conspiracy,
does not thereby become a conspirator.
The government is not required to prove that the
parties, too, or members of the alleged agreement or
conspiracy were successful in achieving either the
object of the alleged agreement or conspiracy.
Evidence has been received in this case that
certain persons who are alleged to be coconspirators
of the defendant have done or said things during the
existence or life of the alleged conspiracy in order to
further or advance its goal. Such acts and statements
of these other individuals may be considered by you
in determining whether the government has proven
the charges in Count 1 of the indictment against the
defendant.
Since these acts may have been performed and
these statements may have been made outside the
presence of the defendant and either done or said
without the defendant's knowledge, these acts or
statements should be examined with particular care
by you before considering them against the defendant

73a
if he did not do the particular act or make the
particular statement.
Acts done or statements made by an alleged
coconspirator before a defendant joined a conspiracy
may also be considered by you in determining
whether the government has sustained its burden of
proof in Count 1 of the indictment.
Acts done or statements made before an alleged
conspiracy began or after an alleged conspiracy
ended, however, may only be considered by you
regarding the person who performed that act or made
that statement.
Count 2 of the indictment charges on or about
March 4, 2013, in the Eastern Disrict of North
Carolina, the defendant, Donovan Dave Dixon, then a
physician licensed to practice medicine in the State of
North Carolina, while acting and intending to act
outside the usual course of professional practice and
not for a legitimate medical purpose, knowingly and
intentionally prescribed, dispensed, and distributed a
quantity of Oxycodone, a Schedule II controlled
substance, in violation of Title 21, United States
Code, Section 841(a)(1).
Count 3 of the indictment charges on or about
March 6, 2013, in the Eastern District of North
Carolina, the defendant, Donovan Dave Dixon, then a
physician licensed to practice medicine in the State of
North Carolina, while acting and intending to act
outside the usual course of professional practice and
not for legitimate medical purpose, knowingly and
intentionally prescribed, dispensed, and distributed a

74a
quantity of Oxycodone, a Schedule II controlled
substance, in violation of Title 2, United States Code,
Section 841(a)(1).
Count 4 of the indictment charges on or about
March 13, 2013, in the Eastern District on North
Carolina, the defendant, Donovan Dave Dixon, then a
physician licensed to practice medicine in the State of
North Carolina, while acting and intending to act
outside the usual course of professional practice and
not for a legitimate medical purpose, knowingly and
intentionally prescribed, dispensed, and distributed a
quantity of Oxycodone, a Schedule II controlled
substance, in violation of Title 21, United States
Code, Section 841(a)(1).
Count 5 of the indictment charges on or about
March 26, 2013, in the Eastern District of North
Carolina, the defendant, Donovan Dave Dixon, then a
physician licensed to practice medicine in the State of
North Carolina, while acting and intending to act
outside the usual course of professional practice and
not for a legitimate medical purpose, knowingly and
intentionally prescribed, dispensed and distributed a
quantity of Oxycodone, a Schedule II controlled
substance, in violation of Title 21, United States
Code, Section 841(a)(1).
Count 6 charges April 3, 2013, in the Eastern
District of North Carolina, the defendant, Donovan
Dave Dixon, then a physician licensed to practice
medicine in the State of North Carolina, while acting
and intending to act outside the usual course of
professional practice and not for a legitimate medical

75a
purpose, knowingly and intentionally prescribed,
dispensed and distributed a quantity of Oxycodone, a
Schedule II controlled substance, in violation of Title
21, United States Code, Section 841(a)(1).
Count 7 of the indictment charges on or about April 9,
2013, in the Eastern District of North Carolina, the
defendant, Donovan Dave Dixon, then a physician
licensed to practice medicine in the State of North
Carolina, while acting and intending to act outside
the usual course of professional practice and not for a
legitimate medical purpose, knowingly and
intentionally prescribed, dispensed and distributed a
quantity of Oxycodone, a Schedule II controlled
substance, in violation of Title 21, United States
Code, Section 841(a)(1).
Count 8 of the indictment charges on or about
April 26, 2013, in the Eastern District of North
Carolina, the defendant, Donovan Dave Dixon, then a
physician licensed to practice medicine in the State of
North Carolina, while acting and intending to act
outside the usual course of professional practice and
not for a legitimate medical purpose, knowingly and
intentionally prescribed, dispensed and distributed a
quantity of Oxycodone, a Schedule II controlled
substance, in violation of Title 21, United States
Code, Section 841(a)(1).
Count 9 of the indictment charges on or about
September 3, 2013, in the Eastern District of North
Carolina, the defendant, Donovan Dave Dixon, then a
physician licensed to practice medicine in the State of
North Carolina, while acting and intending to act

76a
outside the usual course of professional practice and
not for a legitimate medical purpose, knowingly and
intentionally prescribed, dispensed and distributed a
quantity of Oxycodone, a Schedule II controlled
substance, in violation of Title 21, United States
Code, Section 841(a)(1).
Count 10 of the indictment charges on or about
July 30, 2014, in the in the Eastern District of North
Carolina, the defendant, Donovan Dave Dixon, then a
physician licensed to practice medicine in the State of
North Carolina, while acting and intending to act
outside the usual course of professional practice and
not for a legitimate medical purpose, knowingly and
intentionally prescribed, dispensed and distributed a
quantity of Oxycodone, a Schedule II controlled
substance, in violation of Title 21, United States
Code, Section 841(a)(1).
Count 11 of the indictment charges on or about
August 8, 2014, in the Eastern District of North
Carolina, the defendant, Donovan Dave Dixon, then a
physician licensed to practice medicine in the State of
North Carolina, while acting and intending to act
outside the usual course of professional practice and
not for a legitimate medical purpose, knowingly and
intentionally prescribed, dispensed and distributed a
quantity of Oxycodone, a Schedule II controlled
substance, in violation of Title 21, United States
Code, Section 841(a)(1).
Count 12 of the indictment charges on or about
August 15, 2014, in the Eastern District of North
Carolina, the defendant, Donovan Dave Dixon, then a

77a
physician licensed to practice medicine in the State of
North Carolina, while acting and intending to act
outside the usual course of professional practice and
not for a legitimate medical purpose, knowingly and
intentionally prescribed, dispensed and distributed a
quantity of Oxycodone, a Schedule II controlled
substance, in violation of Title 21, United States
Code, Section 841(a)(1).
Count 13 of the indictment charges on or about
August 25, 2014, in the Eastern District of North
Carolina, the defendant, Donovan Dave Dixon, then a
physician licensed to practice medicine in the State of
North Carolina, while acting and intending to act
outside the usual course of professional practice and
not for a legitimate medical purpose, knowingly and
intentionally prescribed, dispensed and distributed a
quantity of Oxycodone, a Schedule II controlled
substance, in violation of Title 21, United States
Code, Section 841(a)(1).
Count 14 of the indictment charges on or about
September 3, 2014, in the Eastern District of North
Carolina, the defendant, Donovan Dave Dixon, then a
physician licensed to practice medicine in the State of
North Carolina, while acting and intending to act
outside the usual course of professional practice and
not for a legitimate medical purpose, knowingly and
intentionally prescribed, dispensed and distributed a
quantity of Oxycodone, a Schedule II controlled
substance, in violation of Title 21, United States
Code, Section 841(a)(1).

78a
Count 15 of the indictment charges on or about
September 8, 2014, in the Eastern District of North
Carolina, the defendant, Donovan Dave Dixon, then a
physician licensed to practice medicine in the State of
North Carolina, while acting and intending to act
outside the usual course of professional practice and
not for a legitimate medical purpose, knowingly and
intentionally prescribed, dispensed and distributed a
quantity of Oxycodone, a Schedule II controlled
substance, in violation of Title 21, United States
Code, Section 841(a)(1).
Count 16 of the indictment charges on or about
September 18, 2014, in the Eastern District of North
Carolina, the defendant, Donovan Dave Dixon, then a
physician licensed to practice medicine in the State of
North Carolina, while acting and intending to act
outside the usual course of professional practice and
not for a legitimate medical purpose, knowingly and
intentionally prescribed, dispensed and distributed a
quantity of Oxycodone, a Schedule II controlled
substance, in violation of Title 21, United States
Code, Section 841(a)(1).
Count 17 of the indictment charges on or about
September 29, 2014, in the Eastern District of North
Carolina, the defendant, Donovan Dave Dixon, then a
physician licensed to practice medicine in the State of
North Carolina, while acting and intending to act
outside the usual course of professional practice and
not for a legitimate medical purpose, knowingly and
intentionally prescribed, dispensed and distributed a
quantity of Oxycodone, a Schedule II controlled

79a
substance, in violation of Title 21, United States
Code, Section 841(a)(1).
Count 18 of the indictment charges on or about
October 2, 2014, in the Eastern District of North
Carolina, the defendant, Donovan Dave Dixon, then a
physician licensed to practice medicine in the State of
North Carolina, while acting and intending to act
outside the usual course of professional practice and
not for a legitimate medical purpose, knowingly and
intentionally prescribed, dispensed and distributed a
quantity of Oxycodone, a Schedule II controlled
substance, in violation of Title 21, United States
Code, Section 841(a)(1).
Count 19 of the indictment charges on or about
October 13, 2014, in the Eastern District of North
Carolina, the defendant, Donovan Dave Dixon, then a
physician licensed to practice medicine in the State of
North Carolina, while acting and intending to act
outside the usual course of professional practice and
not for a legitimate medical purpose, knowingly and
intentionally prescribed, dispensed and distributed a
quantity of Oxycodone, a Schedule II controlled
substance, in violation of Title 21, United States
Code, Section 841(a)(1).
Count 20 of the indictment charges on or about
October 22, 2014, in the Eastern District of North
Carolina, the defendant, Donovan Dave Dixon, then a
physician licensed to practice medicine in the State of
North Carolina, while acting and intending to act
outside the usual course of professional practice and
not for a legitimate medical purpose, knowingly and

80a
intentionally prescribed, dispensed and distributed a
quantity of Oxycodone, a Schedule II controlled
substance, in violation of Title 21, United States
Code, Section 841(a)(1).
Count 21 of the indictment charges on or about
November 3, 2014, in the Eastern District of North
Carolina, the defendant, Donovan Dave Dixon, then a
physician licensed to practice medicine in the State of
North Carolina, while acting and intending to act
outside the usual course of professional practice and
not for a legitimate medical purpose, knowingly and
intentionally prescribed, dispensed and distributed a
quantity of Oxycodone, a Schedule II controlled
substance, in violation of Title 21, United States
Code, Section 841(a)(1).
Section 841(a)(1) of Title 21 of the United States
Code, in part, makes it a crime for anyone to
knowingly or intentionally distribute or dispense, or
possess with intent to manufacture, distribute or
dispense
a
controlled
substance,
including
Oxycodone.
To sustain it's burden of proof for the crime of
unlawful dispensation and distribution of Oxycodone,
as charged in Counts 2 through 21 of the indictment,
the government must prove the following three
elements beyond a reasonable doubt:
First: That the defendant, Donovan Dave Dixon,
did dispense or distribute a quantity of Oxycodone on
or about the date charged;

81a
Second: That the defendant, Donovan Dave Dixon,
did so knowingly or intentionally; and Third: That the
defendant, Donovan Dave Dixon, dispensed this
Oxycodone other than for a legitimate medical
purpose or outside the scope of professional medical
practice.
There are no specific guidelines concerning what
is required to support a conclusion that a defendant
physician acted outside the usual course of
professional medical practice or for other than a
legitimate medical purpose. In making a medical
judgment concerning the proper treatment for an
individual patient, physicians have discretion to
choose among a wide range of options. Therefore, in
determining whether the defendant acted for other
than a legitimate medical purpose, you should
examine all of the defendant's actions and the
circumstances surrounding these actions.
Factual circumstances which may indicate that a
physician acted outside the usual course of
professional medical practice or for other than a
legitimate medical purpose include: one, prescribing
an inordinately large quantity of controlled
substances; two, issuing large numbers of
prescriptions; three, failing to give patients a physical
examination before issuing prescriptions; four,
warning patients to fill prescriptions at different
drugstores; issuing prescriptions to a patient known
to be delivering the drugs to others; six, prescribing
controlled drugs at intervals inconsistent with
legitimate medical treatment; seven, using street
slang rather than medical terminology for the drugs

82a
prescribed; eight, the absence of a logical relationship
between the drugs prescribed and the patient's
alleged condition; nine, writing more than one
prescription at a time in order to allow patient to fill
them at different times and places; ten, whether any
medical history was taken; and, eleven, continuing to
prescribe narcotics after the physician is aware that
patient is addicted.
If a doctor dispenses a drug in good faith, in
medically treating a patient, then the doctor has
dispensed that drug for a legitimate medical purpose
in the usual course of professional medical practice.
That is, he has dispensed the drug lawfully. Good
faith in this context means good intentions, and the
honest exercise of professional judgment as to the
patient's needs. It means the defendant acted in
accordance with what he reasonably believed to be a
legitimate medical purpose and in accordance with
what he reasonably believed to be a legitimate
medical purpose and in accordance with the usual
course of generally accepted medical practice. If you
find that the defendant acted in good faith in
dispensing the drugs charged in the indictment, then
you must find the defendant not guilty of that charged
crime.
For you to find that the government has proven
this essential element, you must determine that the
government has proven beyond a reasonable doubt
that the defendant was acting outside the bounds of
professional medical practice -- that his authority to
prescribe controlled substances was being used not for
treatment of a patient, but for the purpose of assisting

83a
another in the maintenance of a drug habit or
dispensing controlled substances for other than a
legitimate medical purpose, including for the
defendant's own personal profit. Put another way, the
government must prove as to each count beyond a
reasonable doubt that the defendant dispensed the
specific controlled substance other than for a
legitimate medical purpose or not within the bounds
of professional medical practice.
A physician's own methods do not themselves
establish what constitutes the usual course of
professional medical practice. In determining
whether the defendant's conduct was within the
bounds of professional medical practice, you should,
subject to the instructions I give you concerning the
credibility of experts and other witnesses, consider
the testimony you have heard relating to what has
been characterized during the trial as the norms of
professional medical practice.
You should also consider the extent to which, if at
all, any violation of professional norms you find to
have been committed by the defendant interfered
with his treatment of his patients and contributed to
an overprescription or excessive dispensation of
controlled substances. You should consider the
defendant's actions as a whole and the circumstances
surrounding them. A physician's conduct may
constitute a violation of applicable professional
regulations as well as applicable criminal statutes.
However, a violation of a professional regulation does
not, in and of itself, establish a violation of the
criminal law.

84a
As I just stated, in determining whether the
defendant is guilty of the crimes with which he is
charged, you should consider the totality of his actions
and the circumstances surrounding them, and the
extent and severity of any violations of professional
norms you find he committed.
Upon retiring to your jury room to begin your
deliberations, you must elect one of your members to
act as your foreperson. The foreperson will preside
over your deliberations and will be your spokesperson
here in court.
Your verdict must represent the collective
judgment of the jury. To return a verdict, it is
necessary that each juror agree to it. Your verdict, in
other words, must be unanimous.
It is your duty as jurors to consult with one
another and to deliberate with one another with a
view towards reaching an agreement, if you can do so
without violence to individual judgment. Each of you
must decide the case for yourself, but do so only after
an impartial consideration of the evidence in the case
with your fellow jurors.

